                        U.S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL




                                 REPORT ON

                INSPECTION OF THE SECRETARY OF ENERGY’S

                               FOREIGN TRAVEL




Report No: DOE/IG-0397                           Office of Inspections
Date Issued: October 7, 1996                     Washington, D.C. 20585
                                         REPORT ON
                          INSPECTION OF THE SECRETARY OF ENERGY’S
                                      FOREIGN TRAVEL


                                                 TABLE OF CONTENTS

                                                                                                                  PAGE

 I. INTRODUCTION AND PURPOSE..................................................................................... 1

II. SCOPE AND METHODOLOGY......................................................................................... 2

III. EXECUTIVE SUMMARY..................................................................................................... 4

IV. BACKGROUND.................................................................................................................14

V. INSPECTION RESULTS ...................................................................................................18

          A. Authority and Planning ...........................................................................................18

                    1.   Introduction...................................................................................................18
                    2.   Legal Authority for the Trade Missions .....................................................18
                    3.   DOE’s Trade Promotion Strategy.............................................................21
                    4.   DOE Trade Missions ..................................................................................21
                    5.   Planning the Trade Missions .....................................................................26

          B. Trip Participants .....................................................................................................36

                    1.   Introduction...................................................................................................36
                    2.   Identifying Who Participated......................................................................41
                    3.   Selection of Non-Federal Participants .....................................................47
                    4.   Invitational Travel.........................................................................................60
                    5.   Support Personnel......................................................................................65

          C. Trip Costs................................................................................................................78

                    1.   Introduction.......................................................................................        78
                    2.   Travel Costs.....................................................................................          80
                    3.   Embassy Support Costs...................................................................                   88
                    4.   Contractor Support Costs...............................................................                   143
                    5.   Overtime.........................................................................................         148
                    6.   Full Cost Recovery.........................................................................               153



                                                                     i
         D. Source of Funds ...................................................................................................164

         E. Aircraft Acquisition...............................................................................................176

                   1. Introduction.................................................................................................176
                   2. Action Taken As Result of a Prior Audit Report ....................................176
                   3. The DOE Aircraft Acquisition Process...................................................177

         F. Trade Mission Outcomes.....................................................................................190

                   1.   Introduction.................................................................................................190
                   2.   Monetary Outcomes..................................................................................191
                   3.   The Department’s Clarification of Monetary Outcomes........................209
                   4.   Role of the Department in Achieving the Monetary Outcomes ............213
                   5.   Non-Monetary Outcomes of the DOE Trade Missions .........................218

VI. Summary of Recommendations and Corrective Actions ............................................228

VII. Other Management Comments..... ................................................................................247

Attachments: Copies of Management Comments

                   1. June 27, 1996, Memorandum
                   2. July 8, 1996, Memorandum
                   3. October 3, 1996, Memorandum




                                                                   ii
I. INTRODUCTION AND PURPOSE

On December 9, 1995, the Secretary of Energy requested that the Department’s Inspector
General (IG) conduct a thorough examination of all Secretarial foreign travel from 1993 to
December 1995 to include the purpose of each trip, the activities of each Federal
participant in each trip, the funding of each trip, and claims for reimbursements for
expenses by Federal trip participants. The Secretary also requested that the review
include an assessment of travel authorization, voucher, traveler reimbursement, and
auditing systems employed by the Department to identify steps that could be taken to
reduce errors and improve accounting oversight. Additionally, the Secretary requested that
the Inspector General conduct a thorough examination of the establishment and filling of the
Department’s Ombudsman position. The Office of Inspector General (OIG) initiated a
review into these matters and assigned primary responsibility for the review to the Office of
Inspections. The results of the review regarding the Ombudsman position were discussed
in the “Report on Inspection of the Establishment and Filling of the Department’s
Ombudsman Position” (DOE/IG-0393) issued August 1, 1996.

The purpose of this inspection was to conduct a thorough examination of the 16 Secretarial
foreign trips from June 1993 to December 1995. This report focuses on the four trade
missions because of their extent and cost. We examined a number of Departmental
management systems and processes involved in planning and executing the 16 foreign
trips. To determine the actual cost of the 16 trips, it was necessary to determine who
participated in the trips and to identify the individual travel costs. We were required to
perform extensive reviews of records and conduct a large number of interviews because
the Department could not provide any specific documents that could accurately account for
who actually participated on the 16 trips. We examined records such as Travel
Authorizations, Travel Vouchers, passenger lists, trip reports, Department of State cables,
and lists prepared by the Department; and conducted more than 300 interviews. Having
identified who participated, it was then necessary to examine key aspects of the
Department’s management systems involving (1) accounting for costs; (2) authorizing,
processing, auditing and paying for official travel; (3) obtaining and paying for overseas
support through the State Department; (4) providing Executive protection; and (5) obtaining
and using contractor support assistance. Some of the other management systems that we
focused on were: (1) procedures for initially capturing and then tracking the status of
business agreements associated with the trade missions; (2) processes for procurement
of charter air services; and (3) interfaces with other Federal Government agencies to
conduct foreign trade missions.

Our objectives were to:

       - Identify the authority and purpose for each trip.

       - Evaluate the Department’s procedures for planning and for controlling the
         execution of each trip.
       - Identify trip participants and evaluate the process for selecting and accounting for
         participants of each trip.

       - Identify sources of funding and determine total costs of each trip.

       - Evaluate the Department’s procedures for acquiring aircraft for foreign travel.

       - Review the Department’s travel authorization/reimbursement system and travel
         vouchers for travelers paid by the Department for each trip.

       - Evaluate the Department’s process for identifying and reporting outcomes from
         the four trade missions.

       - Follow up on the status of the suggestions in the OIG November 7, 1994, audit
         report regarding the India and Pakistan trips and the IG memorandum to the then
         Deputy Secretary (see Section E, “Aircraft Acquisition”).


II. SCOPE AND METHODOLOGY

In conducting this inspection, we interviewed Federal and non-Federal employees who had
participated in the Secretarial foreign trips, and we reviewed selected records and
documents at Department of Energy (DOE) Headquarters and at field locations. We
interviewed DOE Federal and contractor employees who had participated on one or more
of the Secretary’s foreign trips, either as a traveler, as a trip planner, or in both capacities.
We also interviewed Federal employees who traveled on a Secretarial foreign trip and
represented the following organizations: Department of Commerce, Department of
Interior, Department of State, Agency for International Development, Nuclear Regulatory
Commission, Export-Import Bank of the United States, Office of Science and Technology
Policy, Office of the Vice President, and United States Enrichment Corporation. In
addition, we discussed selected travel and trade mission issues with other Federal
employees from the Department of Commerce, the Department of State, and the
Department of Treasury.

We discussed selected travel and outcome-related issues with selected business
participants who traveled on a Secretarial foreign trip. Some of these discussions
generated specific information regarding the status of business agreements, the nature of
DOE’s assistance during the four trade missions, support for DOE’s stated position on the
outcomes of the four trade missions, and other travel-related issues.

Our review of documents included laws: regulations; and DOE directives, policies,
procedures, planning documents, financial documents, and travel management documents.
In addition, we reviewed the following records: Time and Attendance, invitational travel,
accounting, aircraft procurement, and embassy costs. The review of travel management
records allowed us to make observations regarding the Department’s procedures for

                                                2
authorizing, processing, auditing and paying official travel. We also reviewed documents
supporting the Department’s reported outcomes that resulted from the trade missions.

On June 27, 1996, and July 8, 1996, the Department provided comments on our Initial Draft
Report. These comments were signed by the Acting Chief Financial Officer and are
attached verbatim to this report. In addition, on August 1, 1996, Department officials
provided us a written update on the status of corrective actions regarding our
recommendations. This update stated that a redraft of DOE Notice (N) 551.1,
“International Travel” had been finalized and issued July 31, 1996, as DOE Manual (M)
551.1, “International Trips,” and DOE Policy (P) 551.1, “International Trips.” Also, in
response to recommendations in the Initial Draft Report, the Office of General Counsel
issued three opinions on July 31, 1996: (1) “Inspector General Recommendations -
Reception and Representation Fund Issues”; (2) “Inspector General Recommendations -
Miscellaneous Receipts Issue”; and (3) “Authority and Financial Liabilities of the
Department and of Executive Protection Personnel When Carrying Weapons in a Foreign
Country.” On October 3, 1996, the Department also provided comments on our Official
Draft Report. We discuss management’s comments throughout the report and have made
changes to the report where appropriate. In addition, Section VII of the report discusses
management comments that are not specifically addressed elsewhere in the report.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            3
III. EXECUTIVE SUMMARY

Secretary Hazel R. O’Leary traveled overseas on 16 occasions between June 1993 and
December 1995. We identified $4.58 million, excluding salaries and overtime, spent by
DOE for these trips: $3.37 million for travel costs, $819,091 for embassy support costs,
and $387,292 for contractor support costs. Four of the 16 trips were trade missions to
India, Pakistan, China, and South Africa. We determined that $3.42 million of the $4.58
million was spent on these four trade missions: $2.56 million for travel costs, $523,634 for
embassy costs, and $336,736 for contractor support costs. According to DOE officials,
the purpose of these trade missions was to help advance important U.S. international
economic and policy objectives, and help create business for U.S. firms.

The Department has identified numerous non-monetary outcomes resulting from the trade
missions. However, the Department has not always been clear in describing the monetary
outcomes. For example, the monetary outcomes reported by DOE include the signing of
143 business agreements, with a potential value of $19.7 billion. These agreements are
not all firm contracts and they do not represent the actual dollars going to U.S. companies.
Also, we identified a number of internal control deficiencies regarding the administration of
the Secretary’s foreign trips in such areas as embassy support costs, overtime costs, and
chartering aircraft.

We have made a number of recommendations to improve DOE’s management and
administration of the Secretary’s foreign travel, particularly for foreign trade missions. The
following information summarizes selected results of our review.

Authority and Planning

DOE’s Office of General Counsel has cited two statutes that delineate the Secretary of
Energy’s authority to conduct trade promotion activities: the Energy Policy Act of 1992 and
the Export Enhancement Act of 1992. The Energy Policy Act of 1992 states the Secretary
of Energy shall consult with government officials in host countries and, as appropriate, with
representatives of utilities or other entities in host countries, to determine interest in and
support for potential projects. In writing about the Export Enhancement Act of 1992, DOE’s
Deputy General Counsel said: “The statutory mission that was enacted here includes
‘delivery of services to United States businesses, including * * * representation of United
States business interests abroad.’ ”

Our inspection determined that Secretary O’Leary relied on four key staff members to plan
and execute the trade missions. These key staff members were (1) the then Chief of Staff;
(2) the then Special Assistant to the Secretary for Policy; (3) the then Director, Office of
Scheduling and Logistics; and (4) a Management Assistant from the Office of Policy. The
Management Assistant, referred to as an “International Trip Coordinator” (Trip
Coordinator), arranged the transportation and schedules for the U.S. business
representatives who accompanied the Secretary on the trade mission to India. For the
subsequent trade missions to Pakistan, China, and South Africa, the Trip Coordinator

                                               4
assisted the Special Assistant for Policy with the day-to-day planning for the trade
missions. The Trip Coordinator said she was “the only DOE employee who was assigned
full time on a day-to-day basis” to plan for these trade missions; and that she had no prior
experience in this type of work.

The four key staff members were assisted by a trip planning team consisting of between 30
to 40 DOE employees. The trip planning team met once or twice a week for 1/2 hour to
two hours to discuss the logistical and substantive plans for the respective trade mission.
After the trade mission to India, DOE planning for the subsequent trade missions also
consisted of sending a “preadvance” team to the host country to perform substantive and
administrative work with the U.S. Embassy and host country officials. For the trade
mission to Pakistan, for example, two DOE employees were in Pakistan before the main
body arrived. Five individuals were on the preadvance team to China, and eight were on
the preadvance team to South Africa.

In addition to the preadvance teams, DOE also sent advance teams to each of the four
countries about a week in advance of the main body. Advance teams were responsible for
security, communications, administration, press, graphics, and substance arrangements in
preparation of the main body. We determined that 25 individuals were advanced to India,
35 to Pakistan, 56 to China, and 30 to South Africa.

The main body of the trade missions consisted of support personnel and the “Official
Delegation,” which included designated DOE employees and those individuals listed as
“Business Delegates.” The Business Delegation included individuals from U.S.
businesses, non-governmental organizations, other Federal agencies, and DOE
management and operating contractors. Some of the business delegates used
Government-arranged air transportation while others traveled to the host country on their
own.

Trip Participants

We found that DOE could not accurately account for who actually participated on the
Secretary’s 16 foreign trips. It was especially difficult to account for the Federal and non-
Federal participants on the Department’s four trade missions. In order to determine who
participated on the trips, we reviewed passenger lists for chartered flights, DOE’s official
trip reports, travel authorization listings, travel voucher listings, and other lists prepared by
DOE. We identified 256 Federal participants and 188 non-Federal participants on the four
trade missions who used Government-arranged air.

In response to requests from the Chairmen of two Congressional subcommittees, written
criteria for selecting non-Federal participants were provided by DOE for each of the four
trade missions. Also provided was a list of 28 people who DOE said participated in the
selection of non-Federal participants. Seven of the 28 told us they were not involved with
the selection of non-Federal participants for the trade missions. Further, 12 of the 28 told


                                                5
us they had not seen the written criteria. In addition, the written criteria for India was
prepared after the requests were received.

Invitational Travel

Under Federal travel regulations, DOE can pay the transportation, lodging, subsistence,
and other related travel expenses of private individuals who perform a direct service for the
Government. Based on information and documentation provided by DOE, the Department
extended invitational travel to participants on as many as 27 occasions in association with
the Secretary’s foreign trips. We determined that on 5 of these occasions invitational travel
was inappropriately extended, and that on 19 occasions prior written approval and
justification had not been prepared by a principal Department official. We also determined
that invitational travel policy was not fully understood by some DOE officials.

Travel Costs

DOE spent $3.37 million in travel costs supporting the Secretary’s 16 overseas trips. For
the four trade missions, DOE spent $2.56 million in travel costs: $670,912 for the trade
mission to India, $488,360 for Pakistan, $799,573 for China, and $601,390 for South
Africa.

Travel Vouchers

We reviewed 220 travel vouchers filed as a result of the four trade missions and
determined that almost all DOE participants claimed full per diem. Yet, based on
interviews and a review of official itineraries for the trade missions, we identified 30
functions in which breakfast, lunch, or dinner was provided. Of the 220 vouchers reviewed,
only one person had reduced their per diem costs as required by Federal travel
regulations. In some cases, the meals provided were paid for by the U.S. Embassy,
potentially causing the U.S. Government to pay twice for the same meals.

Embassy Support Costs

We identified several internal control weaknesses in the process used by DOE officials to
obtain support from U.S. Embassies and to control embassy support costs. DOE officials
were unable, in some instances, to validate the appropriateness of specific embassy
support costs for the four trade missions or provide records to support all costs incurred for
these missions. Also, DOE officials incurred embassy support costs prior to obligating
funds for the trade mission to India. The first DOE memorandum requesting DOE
accounting officials to obligate funding for the India trip occurred one month after DOE
officials had returned from India.

As of May 1, 1996, DOE accounting system records showed Department officials had
identified $819,091 in embassy support costs with 12 of the Secretary’s foreign trips.
These costs included $523,634, which were identified with the four trade missions, leaving

                                                6
a balance of $295,457 for the eight other foreign trips. Of the $523,634 identified with the
four trade missions, $325,828 was still in an embassy cost suspense account until Office of
Human Resources and Administration (Human Resources) officials could determine the
validity of these costs. Further, an additional $279,155 in embassy support costs, not
identified with specific trips, also had been applied to the suspense account.

As a separate effort, we reviewed documents other than the accounting system records
and identified, through this approach, embassy support charges totaling $549,299. These
charges were identified by review of “1221 Summaries” prepared by DOE accounting
officials, records provided by Human Resources officials, and other documents. The
$549,299 in embassy support charges are comprised of $44,549 for India; $101,903 for
Pakistan; $201,445 for China; and $201,402 for South Africa. Following is a listing of the
type and amounts of embassy support costs charged by U.S. Embassies in support of the
four trade missions:

       - “Ground Transportation” costs amounted to $159,798 for the rental of
         automobiles, minivans, trucks, buses, and drivers. These costs were incurred to
         transport the Secretary, her staff, and business delegates. Rental cars were also
         used by security, communications, and administrative advance personnel.

       - “Air Transportation” costs amounted to $27,666 and included costs for airline
         tickets, costs relating to procurement of airline tickets, and air freight costs. For
         example, DOE paid the airfare for U.S. Embassy employees flying between
         Shanghai and Beijing. Air freight costs were charged for transporting containers
         that held computers, printers, and other supplies used during the trade missions.

       - “Lodging” costs amounted to $16,217 for hotel rooms purchased through an
         embassy to house DOE employees, invitational travelers, and embassy
         employees.

       - “Meal” costs amounted to $3,969, which included food and beverages at official
         functions, as well as embassy staff meals for personnel assigned to the
         Secretary’s visit.

       - “Phone and Facsimile” costs of $91,781 were for rental charges for cellular
         telephones and standard telephone service charges for the Secretary, her staff,
         and the security, communications, and administrative advance teams.

       - “Phone Installation” costs of $15,205 were for telephone lines installed in hotel
         rooms used by the Secretary, her staff, security, and administrative personnel.

       - “Business Center” costs of $57,568 were for the rental of a hotel suite for a
         command post and a hotel suite for a staff room to conduct staff meetings and
         staff work.


                                               7
       - “Conference Rooms” costs of $42,346 were for such items as the rental of large
         meeting rooms and smaller breakout rooms used by the Secretary and
         delegation.

       - “Catering (Reception/Banquet)” costs of $36,489 were for official receptions and
         banquets.

       - “Embassy Costs/Overtime” of $40,559 were for embassy employees who worked
         overtime or on holidays while on detail to assist the Secretary’s visit.

       - “Photography” and “Video” costs of $17,228 were for photographs and video
         photography to document the various meetings, events, and signing ceremonies
         that took place during the four trade missions.

       - “Other” costs of $40,473 were for such items as miscellaneous labor and
         supplies, petty cash, printing, and reproduction.

Following are some specific examples of embassy support costs charged during the four
trade missions.

A local phone company charged the U.S. Embassy in India $6,609 to install eight
telephones in the Maurya Sheraton Hotel. DOE was also charged $4,706 for embassy
support costs for embassy employees assigned to support the Secretary’s trade mission
to India and $462 by the Tajmahal and Maurya hotels for room services for meals and
beverages.

Of the $101,903 in embassy support costs charged for the Pakistan trade mission, DOE
did not provide invoices describing the nature of $53,564 of these costs. We noted that
these costs were primarily incurred during the Secretary’s trip to Vienna, Austria, to attend
an International Atomic Energy Agency General Conference before traveling on to
Pakistan.

At the time of our fieldwork, the Department did not provide invoices or other
documentation that identified the nature of $38,212 of the total $201,445 in embassy
support costs for the China trade mission. Charges for the China trade mission included
telephone service costs of $53,878 and business center costs of $38,898. DOE was also
charged $2,277 for reserving a block of rooms at the China World Hotel in Beijing even
though some of the rooms were not used.

Charges for the South Africa trade mission included transportation charges of $102,739, a
$7,085 charge for a reception, which was apparently double-billed by a hotel, and a $6,346
charge for an erroneous payment by the U.S. Embassy to an oil company. Other charges
included $4,785 paid to the American Chamber of Commerce for hosting a dinner and
$7,104 for a reception hosted by the Secretary at the Carlton Hotel in Johannesburg, which
included food for 300 people and an open bar.

                                              8
In addition to the $201,402 identified above as being paid through the U.S. Embassy for
the trade mission to South Africa, our review disclosed an additional $20,440 paid to the
Carlton Hotel for the Energy Summit Conference: $8,121 for meeting rooms; $1,470 for
miscellaneous food and beverages; $7,522 for a luncheon for 324 people; and $3,327 for
three breakfasts for 120-145 people. To fund these costs, 44 non-Federal travelers were
each assessed a fee of $400, for a total of $17,600.

Our review of embassy support costs also disclosed that DOE funds were used for
“reception and representation” type expenditures from the Departmental Administration
appropriation when specific funding for such activities was not available. At the time of the
trade mission to South Africa, the Department’s Fiscal Year 1995 “reception and
representation” fund, amounting to $35,000, had a balance of $1,772. All but $142 of this
remaining balance was subsequently expended or obligated. According to a DOE official,
prior to the trip commencing, trip organizers were told that no money from the “reception
and representation” fund would be available to fund trip activities or events. The
Department was charged, however, an additional $17,417 of “reception and
representation” type costs in South Africa. The Department also failed to properly charge
its reception and representation account for events held during the trade mission to China.

We believe that the “reception and representation” type expenditures, which have been
charged to DOE’s Departmental Administration appropriation and which are in excess of
its $35,000 Fiscal Year 1995 “reception and representation” fund, may have represented a
misuse of appropriated funds. In addition, we believe that the Department’s payment of
these expenditures after the exhaustion of the “reception and representation” account,
possibly may have resulted in an Antideficiency Act violation.

In response to our recommendation in the Initial Draft Report, the Office of General Counsel
issued an opinion on July 31, 1996, regarding “reception and representation” fund issues.
The opinion concluded that “reception and representation” funds were not “one-year” funds,
despite the Department having treated them as such in prior years. The opinion also
identified $49,008 of unobligated “reception and representation” funds available from the
past 11 years for use in paying for the $35,086 of “reception and representation” expenses
it identified in its review. Based upon this, the Office of General Counsel’s concluded that
the Department’s “reception and representation” expenditures would not constitute either a
misuse of appropriated funds or a violation of the Antideficiency Act. The Office of
Inspector General has requested a Comptroller General opinion concerning the issue
whether the Department’s reception and representation funds are “no year” funds, available
until expended, or whether the annual expenditures are limited by the stated appropriation
act amount.
We also identified a possible procurement integrity issue regarding the August 23, 1995,
reception for the Secretary in South Africa hosted by the I Can Foundation. At the time the
Department agreed to accept the reception from the I Can Foundation, the Department
was initiating a procurement to pay them for activities in support of the Secretary’s South
Africa trip. We recommended that the Office of General Counsel determine whether the

                                              9
procurement integrity provisions of the Office of Federal Procurement Policy Act were
violated by the acceptance of the reception by the Department and the attendance of
Department personnel at the reception. On October 1, 1996, the Office of General
Counsel issued an opinion that concluded that there was not a violation of procurement
integrity prohibitions.

Contractor Support Costs

We identified support services contractors and subcontractor employees who participated
in some of the Secretary’s foreign trips. The National Renewable Energy Laboratory, a
management and operating (M&O) contractor-operated laboratory, used a subcontractor
to perform advance support on the India, China, and South Africa trade missions. The
Department incurred $52,842 in costs for this subcontractor: $18,867 for the India trade
mission; $7,000 for the China trade mission; and $26,975 for the trade mission to South
Africa. Computer Data Systems Incorporated (CDSI) and The Mitchell Group, support
service contractors, also assisted with some of the Secretary’s foreign trips. Per DOE
officials, CDSI was paid $222,403 from January to September 1995 for support of the
Secretary’s foreign travel and for support of a trip to Mexico by the then Deputy Secretary.

DOE’s Golden Field Office executed a contract with The Mitchell Group on July 25, 1995,
for $110,000 to identify local enterprises in South Africa that would become candidates for
immediate partnerships with similarly interested and diverse U.S.-based energy related
firms. Funds were transferred to the Golden Field Office from DOE’s Office of Economic
Impact and Diversity to help fund this effort. The Office of Economic Impact and Diversity
subsequently wrote a letter to The Mitchell Group stating that it would increase its share of
The Mitchell Group fees by $6,000 so the        “I Can Foundation” could arrange a tour for
DOE of the Northern Transvaal Technikon in South Africa; convene a meeting of 2,000
students for the Secretary to address concerning DOE’s commitment to education; and
distribute books and computers donated to South Africa. The Mitchell Group was also
paid $50,000 by the Golden Field Office on January 10, 1996, to provide “logistics and
support of South African visitors to Oak Ridge Manufacturing Research Technology
Training.”

Overtime

The Secretary was provided executive protection for the 16 foreign trips by couriers from
DOE’s Transportation Security Division (TSD) and by personnel from DOE’s Headquarters
Office of Security Affairs (OSA). Our review identified $276,442 that was spent for 10,839
hours of overtime for executive protection personnel. For the four trade mission trips, other
support personnel were paid for 3,932 hours of overtime at an estimated cost of $89,749.
Our review also identified a lack of management controls regarding verification and
certification of overtime claimed by executive protection personnel in support of the
Secretary’s foreign trips.



                                             10
In addition to traveling with the Secretary, executive protection personnel performed
advance work in-country in preparation for the Secretary’s arrival. Advance work included
such activities as arranging for ground transportation, becoming familiar with the roads
from the airport to the hotel and other sites to be visited by the Secretary, and making
security arrangements at the hotel and meeting sites.

We noted the Secretary traveled to St. Petersburg, Russia, on the afternoon of December
16, 1994, as an intermediate stop between official business that was conducted in
Moscow and Stockholm, Sweden. The Secretary departed St. Petersburg for Stockholm
on the following afternoon. We identified that executive protection personnel charged 147
hours of overtime in support of the Secretary’s one-day visit to St. Petersburg. Two
executive protection personnel were in-country about a week before the Secretary arrived
and departed St. Petersburg the morning after the Secretary departed.

Full Cost Recovery

Our November 1994 report entitled, “Audit of Department of Energy International Charter
Flights,” noted that DOE officials had not implemented a full cost recovery policy and
procedures for its foreign travel costs. DOE officials advised us, at the time, that they
believed non-Federal passengers should pay for their full pro-rata share of air
transportation costs in advance. For the trade mission to India, however, DOE officials had
decided to charge non-Federal passengers the round-trip coach fare of $2,800 instead of
the full pro-rata cost of the charter flight estimated at the time to be $12,860.

For the trade mission to Pakistan, the Department did attempt to collect in advance the full
pro-rata air transportation cost of $6,477 from non-Federal passengers. However, DOE
had been unable to collect from all passengers in advance and had not established
accounts receivable for these amounts at the time of our audit -- more than a month after
the Pakistan trade mission was completed.

Consistent with the suggestion in our November 1994 report, in February 1995 DOE
established 13 accounts receivable totaling $75,486 for the Pakistan trade mission; and in
March 1995, established 44 accounts receivable totaling $95,200 for the India trade
mission. We determined that as of April 26, 1996, approximately $37,000 of these
accounts receivable remained outstanding--$19,831 for Pakistan and $16,700 for India.
We also determined that DOE did not pursue collection of the accounts receivable as
aggressively as allowed by DOE policy.

Unlike the trade missions to India and Pakistan, the Department attempted full cost
recovery of air travel costs for the trade missions to China and South Africa. For the trade
mission to China, the Department told non-Federal travelers to make an estimated $9,200
payment for charter airlift services directly to Omega World Travel (Omega), the
Department’s centralized travel service, prior to the flight. Omega, however, was unable to
collect all the amounts due and sought reimbursement from DOE for $93,626. DOE


                                             11
assisted Omega in collecting from the non-Federal passengers and, as of May 1996,
$9,881 was still owed.

For the trade mission to South Africa, the charter company apparently collected pro-rata
amounts of $7,553 due from non-Federal passengers in advance of the trip. We found,
however, other costs that DOE did not recover from non-Federal passengers. For
example, non-Federal travelers were not required to pay for their share of the Kimberly and
Cape Town portions of the trip, and administrative fees collected from non-Federal
travelers did not cover administrative costs associated with delegation activities.

Source of Funds

The Department used funds from 12 appropriation accounts to pay for costs of the four
trade missions. The majority of the trade mission costs--$2.25 million or 66 percent--were
funded by the Departmental Administration, Operating Expenses appropriation.

Aircraft Acquisition

We determined the cost of charter aircraft for the Secretary’s four trade missions was
$2,158,237. The net cost to DOE for use of charter aircraft was $1,328,529; and
collections from non-DOE passengers amounted to $897,008. DOE deposited $67,300
collected for the India trip into the U. S. Treasury, as required, and thus this amount did not
reduce the cost to DOE.

DOE did not use the least expensive method for air travel for the four trade missions.
Analysis performed by a DOE official prior to the trade mission to India, for example,
determined that commercial air travel would cost $165,200, a chartered aircraft would cost
$355,495, and use of a Department of Defense (DOD) aircraft would cost $643,464. The
Secretary authorized the use of a DOD aircraft for the trip to India because of the “inability
of commercial scheduled air services to meet my travel plans” and because she was
“advised that use of the Department of Defense aircraft is preferable for security reasons.”
For the three trade missions to Pakistan, China, and South Africa, however, DOE used a
charter aircraft. We were told that Department officials generally justified the use of charter
aircraft instead of commercial aircraft because the Secretary wanted the entire group to
travel together and because of physical security needs.

Department officials used four different methods of acquiring aircraft charter services for
the four trade missions. They stated that three factors influenced their decision on which
type of aircraft to use: (1) inadequate lead times to compete the acquisition effectively; (2)
lack of information on the number of passengers; and (3) aircraft configuration limitations.
We determined DOE tried different methods for each of the four trade missions to acquire
aircraft in order to reduce the use of DOE appropriated funds as much as possible. After
using a DOD aircraft for the trade mission to India, DOE used a service contract for the
trade mission to Pakistan, a contracted centralized travel service for the trade mission to
China, and a Government Transportation Request for the trade mission to South Africa.

                                               12
Also, as a result of administrative errors, DOE paid $7,492 for a flight in South Africa that
should have cost $1,347. DOE also paid $5,287 for a canceled flight to Mozambique
because the Mozambique government canceled the signing ceremony on the date of the
ceremony. Consequently, the Department was required to pay for the charter airline.

Trade Mission Outcomes

The Department has used both monetary and non-monetary outcomes to report on the
success of its trade missions. The monetary outcomes reported include the signing of 143
business agreements, with a potential value of $19.7 billion; and an estimate of tens of
thousands of new jobs created in the United States. The non-monetary outcomes reported
include policy and regulatory structure reforms intended to promote investment in the host
countries, the breaking down of barriers that inhibit investment, cooperation on nuclear and
energy policy issues, and the signing of various official documents.

The Department has not always been clear, however, in describing the outcomes of its
trade missions. This situation has created opportunity for misinterpretations of the
outcomes and the Department’s role in achieving the outcomes. For example, the 143
business agreements used in the development of the $19.7 billion are not all firm contracts,
and the $19.7 billion does not represent the actual dollars going to U.S. companies. In
addition, the Department has used wording in its press releases and testimony before
Congress, which suggests that the Department’s trade missions caused the 143 business
agreements to be signed. The more accurate description is that the Department helped
move many of these agreements forward and accelerated the signings of many of these
agreements. The Department has also used wording in its reporting that is misleading.
For example, DOE described some of the business agreements as contracts even though
they were actually Memorandums of Understanding, and described some business
agreements as being finalized when, in fact, they were not.

Management Comments. Management stated that:

      “The Department consistently resisted claiming exclusive credit for ‘causing’ the
      business deals. Our press statements and one letter to Congress used the term
      ‘resulted in,’ which some critics assail as a claim of causality. But our intended
      meaning was Webster’s second definition, ‘to end in a given way.’ The business
      signing signified the culmination of much work before and during our missions. In
      addition, most of the time, our press statements were accompanied at the time of
      their release with a listing of the specific agreement by type of project, type of
      agreement and estimated values using information provided by the companies so
      that reporters could describe them as they saw fit. Further, the Secretary’s oral
      remarks at the signing events made clear that the deals were signing [sic]
      represented a variety of stages of business developments, from initial MOU’s to
      power purchase agreements to a variety of other business agreements.”


                                              13
Also, the Department has not always been able to document its reported outcomes. In one
case, for example, although the Department reported $1.8 billion as the value of business
agreements signed, it could not provide documentation to support fully what agreements
comprised this amount. In addition, the Department’s suggestion that the trade missions
created tens of thousands of new jobs in the United States was not supported by the
Department’s records.

We found the Department had a positive impact on many of the business agreements that
were signed, worked to achieve policy and regulatory structure reforms intended to
promote investment in the host countries, and had numerous non-monetary outcomes
relating to trade promotion and cooperation on trade issues. However, the Department
cannot quantify the value of its role in helping to bring business agreements to signing; and
cannot quantify the value of its role in breaking down barriers for U.S. companies or in
helping U.S. companies build a foundation for future business that may have developed
after the missions.

Recommendations and Management Comments

Section VI of the report summarizes our recommendations for improving the Department’s
internal controls over the planning and execution of the Secretary’s foreign travel. We
discuss management’s comments throughout the report and have made changes to the
report where appropriate. In addition, management comments on our recommendations
are presented in the report and are consolidated in Section VI. Section VII of the report
discusses management comments that are not specifically addressed elsewhere in the
report.


IV. BACKGROUND

The Secretary participated in 16 foreign trips from June 1993 through December 1995.
Table 1 shows the locations and dates of the 16 trips.




                                             14
                   TABLE 1
       FOREIGN TRAVEL BY SECRETARY O'LEARY


         TRIP         DATES OF
        NUMBER          TRIP            COUNTRY

1993      1            June 1-5          France

          2          Sept 24-Oct 2       Austria
                                         Russia

          3            Oct 22-26         England

          4            Dec 12-17          Russia

1994      5             Feb 5-8        Ivory Coast


          6            July 7-15          India

          7          Aug 31-Sept 5       Belgium

          8           Sept 16-25         Austria
                                         Pakistan

          9            Dec 12-19         Russia
                                         Sweden

1995      10           Feb 9-25           India
                                        Hong Kong
                                          China

          11          May 17-27          France
                                        Azerbaijan
                                           Italy

          12           June 7-11        Costa Rica

          13         June 26-July 1       Russia

          14         August 18-28      South Africa


          15          Sept 13-20      Czech Republic
                                         Austria

          16         Nov 29-Dec 7      South Africa



                      15
A November 7, 1994, Office of Inspector General audit report found that controls over the
acquisition and financing of international air services needed strengthening. Specifically,
the audit suggested that the Department:

       (1) prepare formal procedures for the acquisition of international air services;

       (2) implement the full cost recovery policy for non-Federal passengers as provided
           for in Title 10, Code of Federal Regulations (C.F.R.) Part 1009;

       (3) establish a procedure which ensures that the Department collects passenger air
           fares before the trip occurs; and,

       (4) establish accounts receivables for non-Federal passengers on the India and
           Pakistan flights and aggressively pursue collection of air fare costs from those
           passengers.

Department officials agreed with the audit’s findings but advised us that they would not be
able to implement corrective actions before the scheduled February 1995 trip to China.
The Inspector General then wrote a December 20, 1994, memorandum to the then Deputy
Secretary recommending that the Department’s processes for international travel be
addressed before any additional trips were contemplated.

In an April 9, 1996, memorandum to the Department’s Deputy Chief of Staff, the Inspector
General provided comments on the Department’s implementation of the audit report
suggestions. Regarding Suggestion 1, the Inspector General stated that formal
procedures had not been implemented, but that he understood draft interim procedures
were to be circulated throughout the Department for comment. Regarding Suggestion 2,
the Inspector General stated that the Department had adopted an informal full cost recovery
policy for non-Federal passengers but needed to clarify “what exactly is full cost recovery.”
Regarding Suggestion 3, the Inspector General stated that we did not believe that the
procedure implemented by the Department to collect passenger air fares before a trip
occurred would ensure that all collections would be made. Regarding Suggestion 4, the
Inspector General stated that accounts receivable were established for non-Federal
passengers participating in the India and Pakistan trips, however, the Department had not
aggressively pursued collection from those passengers.

Management Comments. In response to the April 9, 1996, memorandum from the
Inspector General, management stated that the Deputy Chief of Staff provided three
memorandums to the Inspector General which provided further information on the
Department’s implementation of the audit report suggestions.

On April 15, 1996, the Department issued DOE Notice 551.1, “International Travel,” “for
simultaneous use and coordination.” A memorandum issuing the Notice stated that DOE
Notice 551.1 was developed to address the need for new international travel policies and
procedures and included key issues to improve advance planning, cost control, aircraft

                                              16
acquisition, acquisition of goods and services through U.S. embassies, recoupment of
costs from private sector participants, and accountability.

In 1995, Congressional and media interest raised concerns about the extent and costs of
the Secretarial foreign trips. The United States General Accounting Office (GAO) was
asked to review expenditures for selected foreign trips. The GAO subsequently reviewed
the India and South Africa trade missions and published their findings in a December 28,
1995, report.




                                           17
V. INSPECTION RESULTS

A. Authority and Planning

   1. Introduction

Table 2 identifies the purpose of each of the 16 trips. This section of the report will discuss
in more detail the four trade missions led by Secretary O’Leary; specifically, (1) the legal
authority for DOE’s trade missions; (2) DOE’s trade promotion strategy; (3) why DOE
conducted trade missions to India, Pakistan, China, and South Africa; and (4) generally
how the trade missions were planned.

   2. Legal Authority for the Trade Missions

DOE’s Office of General Counsel has cited two statutes that delineate the Secretary of
Energy’s authority to conduct trade promotion activities. The first statute, the Energy Policy
Act of 1992 (Public Law 102-486), became law on October 24, 1992. The second statute,
the Export Enhancement Act of 1992 (Public Law 102-429), became law on October 21,
1992.

The Office of General Counsel concluded in a memorandum dated December 13, 1995,
and provided by the General Counsel to the Chairman, Subcommittee on Oversight and
Investigations, House Committee on Commerce, on January 23, 1996, that the Secretary
of Energy’s export promotion responsibilities described in the Export Enhancement Act of
1992 and the Energy Policy Act of 1992 complement the foreign and defense policy
responsibilities identified in the Department of Energy Organization Act, 42 U.S.C. 7101 et
seq. Those responsibilities included national security functions under the Atomic Energy
Act, 42 U.S.C. 2011 et seq., and authorities under the Energy Policy and Conservation Act,
42 U.S.C. 6271-6275.

Energy Policy Act of 1992

The Energy Policy Act of 1992 states that the Secretary of Energy shall consult with
government officials in host countries and, as appropriate, with representatives of utilities
or other entities in host countries, to determine interest in and support for potential projects.
Section 1607 of the Energy Policy Act of 1992 (the Act) requires the Secretary of Energy to
develop policies and programs to encourage the export and promotion of domestic energy
resource technologies, including renewable energy, energy efficiency, and clean coal
technologies to developing countries. The Act also requires the Secretary to establish an
innovative renewable energy technology transfer program and an innovative clean coal
technology transfer program. The purposes of the technology transfer programs are to:




                                               18
                         TABLE 2
       PURPOSES OF SECRETARY O'LEARY'S FOREIGN TRIPS
 TRIP     DATES OF
NUMBER      TRIP            COUNTRY                                  PURPOSE

             1993

  1        June 1-5           France      International Energy Agency Ministerial Meeting

  2      Sept 24-Oct 2        Austria     International Atomic Energy Agency General Conference
                              Russia      Gore-Chernomyrdin Commission on Energy and Space
                                               Energy Policy Committee

  3        Oct 22-26         England      Keynote address to the "Oil & Money" Conference

  4        Dec 12-17          Russia      Gore-Chernomyrdin Commission on Energy and Space

             1994

  5         Feb 5-8        Ivory Coast    Head of the Presidential Delegation for the Funeral of
                                          President Houphouet-Boigny

  6        July 7-15           India      Presidential Mission on Sustainable Energy and Trade

  7      Aug 31-Sept 5       Belgium      50th Anniversary of the Liberation of Belgium

  8       Sept 16-25          Austria     International Atomic Energy Agency General Conference
                             Pakistan     Presidential Mission on Energy Investment

  9        Dec 12-19         Russia       Gore-Chernomyrdin Commission on Energy and Space
                             Sweden       Tour of Swedish Nuclear Waste Facility

             1995

  10       Feb 9-25           India       Return Journey to India
                            Hong Kong     Prelude to Presidential Mission to China
                              China       Presidential Mission on Sustainable Energy and Trade

  11      May 17-27          France       International Energy Agency Ministerial Meeting
                            Azerbaijan    Principal Speaker at International Caspian Oil & Gas Exhibition
                              Italy       Keynote Speaker at the 1995 World Geothermal Congress

  12       June 7-11        Costa Rica    Joint Implementation Workshop/Signature of Agreement

  13     June 26-July 1       Russia      Gore-Chernomyrdin Commission on Energy and Space

  14     August 18-28      South Africa   Clinton Administration Delegation on Sustainable
                                          Energy and Empowerment to South Africa

  15      Sept 13-20      Czech Republic U.S. Country Studies Workshop; Center for Clean Air Policy
                                         Joint Implementation Project
                             Austria     International Atomic Energy Agency General Conference

  16     Nov 29-Dec 7      South Africa   Gore-Mbeki Binational Commission




                                                19
       - reduce the United States balance of trade deficit through the export of United
         States energy technologies and technological expertise;

       - encourage the export of United States technologies to those countries that have a
         need for developmentally sound facilities to provide energy derived from
         renewable and coal resources;

       - ensure the introduction of United States firms and expertise in foreign countries;

       - better ensure that United States participation in energy-related projects in foreign
         countries includes participation by United States firms; and

       - assist United States firms, especially firms that are in competition with firms in
         foreign countries, to obtain opportunities to transfer technologies to, or undertake
         projects in, foreign countries.

Export Enhancement Act of 1992

In a December 4, 1995, letter to an Assistant General Counsel, United States General
Accounting Office, DOE’s Deputy General Counsel referred to the Export Enhancement
Act of 1992 and said: “The statutory mission that was enacted here includes ‘delivery of
services to United States businesses, including * * * representation of United States
business interests abroad.’ ”

Title II of the Export Enhancement Act of 1992 directed the President to establish the Trade
Promotion Coordinating Committee. On September 30, 1993, President Clinton signed
Executive Order 12870 establishing the Committee. The purpose of the Trade Promotion
Coordinating Committee is “to provide a unifying framework to coordinate the export
promotion and export financing activities of the United States Government; and to develop
a Government-wide strategic plan for carrying out Federal export promotion and export
financing programs.”

The Trade Promotion Coordinating Committee (TPCC), chaired by the Secretary of
Commerce, coordinates the development of trade promotion policies and programs of the
United States Government. The TPCC, in addition to other responsibilities, coordinates
official trade promotion efforts to ensure better delivery of services to United States
businesses and represents United States business interests abroad.

The TPCC consists of members from 19 Federal departments and agencies, which
include the Departments of State, Defense, Treasury, Agriculture, Transportation, as well
as the Department of Energy. Under the auspices of the TPCC, the Department of Energy
chairs two working groups comprised of representatives from 14 Federal departments and
agencies that work with trade associations comprised mainly of small to medium sized
energy companies. These working groups, the Committee on Renewable Energy

                                              20
Commerce and Trade, and the Committee on Energy Efficiency Commerce and Trade,
promote the exports of renewable energy technologies and energy efficiency products and
services.

  3. DOE’s Trade Promotion Strategy

In a September 11, 1995, letter to the then Deputy Chief of Staff, the then Acting Assistant
Secretary for Policy outlined the four elements of DOE’s trade promotion strategy:

       First, Presidential missions by the Secretary of Energy to the Big Emerging Markets
       (BEMs) as well as to other countries;

       Second, providing political support for U.S. companies by written and personal
       intervention with foreign leaders;

       Third, providing ongoing and longer term support for U.S. industry to break into or
       expand in foreign markets; and

       Fourth, actively promoting policy reforms by foreign governments in such fields as
       regulation, accelerated project approvals, open procurement, and finance.

The Acting Assistant Secretary for Policy stated that DOE’s trade promotion efforts were to
support U.S. energy, environmental, and related technology exports, and to support U.S.
energy companies’ export and international investment objectives. The Acting Assistant
Secretary for Policy’s September 11, 1995, letter was dated two weeks after the last trade
mission was completed in South Africa.

  4. DOE Trade Missions

Secretary O’Leary led four trade missions. These trade missions were to India on July
7-15, 1994; to Pakistan, including an earlier stop in Austria, on September 16-25, 1994; to
China, including earlier stops in India and Hong Kong, on February 9-25, 1995; and to
South Africa on August 18-28, 1995.

Secretary O’Leary told us it was clear that she would lead a trade mission to China based
on two events that occurred in 1993. Both events occurred as a result of a two-week
mission in June 1993 organized and sponsored by the Departments of Energy and
Commerce, and led by the then DOE Acting Assistant Secretary for Fossil Energy, to
promote use of U.S. electric power technologies and services in China’s electric power
development program. Twenty-four firms in the U.S. electric power and fossil fuel industry
were included in the 12-day mission to Beijing, Shanghai, and Guangzhou, China. The
mission met with 500 Chinese electric power officials.

The first event cited by Secretary O’Leary was a meeting with the then Acting Assistant
Secretary for Fossil Energy upon his return from China. Secretary O’Leary stated that the

                                             21
Acting Assistant Secretary urged her to lead a trade mission to China. The Secretary said
it was clear after her meeting with the Acting Assistant Secretary that she would lead a
delegation to China.

The second event was a meeting held with industry representatives who had participated
in the June 1993 mission to China. On August 6, 1993, 21 representatives sent a report
addressed to Secretary O’Leary with a courtesy copy to the then Secretary of Commerce.
The report cited an urgent need for (1) changes in U.S. policies affecting commercial
relationships with China, and (2) formation of a U.S. Government/industry partnership to
promote electric power industry trade with China. On August 9, 1993, industry
representatives on the mission presented their report to the Secretaries of Energy and
Commerce and other senior U.S. Government officials. Secretary O’Leary stated that as a
result of this meeting and the report provided by the industry representatives, she realized
there had to be a coordinated strategy in DOE to export energy technology. She also said
she realized there was no U.S. Government strategic plan for exporting energy technology
to foreign markets.

At the August 9, 1993, meeting with the industry representatives, it was agreed that a
Department of Energy/Department of Commerce-led working group would act on the
issues and reconvene a meeting within a month to present their findings. The working
group presented their findings to industry representatives on September 20, 1993. One of
the findings presented was to plan several missions to China.

It was after these two events, according to Secretary O’Leary, that DOE began an orderly
process to take a “slow track” to plan for a trade mission to China.

Presidential Mission on Sustainable Energy and Trade to India

While DOE was planning a trade mission to China, Prime Minister Rao of India conducted
a State Visit to the U.S. During the May 19, 1994, State Visit, President Clinton committed
that Secretary O’Leary would visit India. During a news conference with Prime Minister
Rao, the President said he had asked Secretary O’Leary “to visit India in July to further our
talks on renewable energy.” An invitation to Secretary O’Leary had previously come from
India’s Minister of Power, Mr. Narendra Salve, on May 4, 1994. Mr. Salve wrote that a:
“number of steps have been initiated by the Government of India which include . . .
distribution facilities in . . . the country . . . . A large number of US based firms have
evidenced interest in participating in the development of . . . the Indian power industry.
Such mutually beneficial cooperation between our countries could facilitate direct
investment . . . .” Mr. Salve also wrote: “I extend to you . . . a personal invitation to visit India
and to witness for yourself the dramatic changes that are occurring in the Indian power
industry.”

Secretary O’Leary said DOE then began planning trade missions to both China and India.
She said she soon realized that the Department could not do two trade missions at the
same time so it was decided to focus on India alone.

                                                 22
On July 5, 1994, President Clinton signed a letter to the trade mission delegates
welcoming them as members of the “Presidential Mission on Sustainable Energy and
Trade to India.” The President wrote that: “On May 19, 1994, Prime Minister Rao and I set
a new course in Indo/U.S. relations, one guided by the shared vision of stronger economic
and commercial cooperation. Your mission marks the first major milestone toward
realizing that vision, and it represents a significant part of our efforts to promote
sustainable development and free trade throughout all of Asia.”

Presidential Mission on Energy Investment in Pakistan

The Special Assistant (Economic Sector) to Prime Minister Bhutto sent a formal invitation
to Secretary O’Leary on June 19, 1994. The letter made reference to a June 10, 1994,
invitation for Secretary O’Leary to visit Pakistan from Secretary Salman Faruqui, Pakistan
Ministry of Water and Power, on behalf of Prime Minister Bhutto. The June 19, 1994, letter
stated that the “Government of Pakistan has undertaken significant measures to accelerate
the development of the energy sector . . . . This has led to the emergence of new
investment opportunities for foreign investment in power generation. You will be pleased to
learn that out of the first four power projects being undertaken in the private sector four of
them are sponsored by the US based firms.” The U. S. Ambassador to Pakistan wrote
Secretary O’Leary on June 9, 1994, encouraging her to visit Pakistan and to bring U.S.
companies along with her.

In a message from President Clinton signed on September 17, 1994, introducing the
members of the “Presidential Mission on Energy Investment in Pakistan,” the President
wrote that: “The United States highly values our rich history of friendship with the people of
Pakistan. I hope that this mission will strengthen our mutual ties and advance free trade,
sustainable development and private investment in South Asia.”

Presidential Mission on Sustainable Energy and Trade to China

As mentioned earlier, Secretary O’Leary was planning to lead a trade mission to China.
On November 24, 1993, the Acting Assistant Secretary for Fossil Energy reported in a
memorandum to the Secretary that he had traveled to Beijing to represent her at the
China/U.S. Energy Conference on November 15-17, 1993. In the memorandum, the Acting
Assistant Secretary said that he had met with Vice Premier Zhao Jian Hua, “. . . a powerful
man with broad policy oversight responsibilities including China’s energy policies and
programs. He was very positive about the interest of China to expand imports of U.S.
energy technology.” The Acting Assistant Secretary also said that the Chinese were
anxious for her to visit China and that the U.S. Embassy was assessing the best time for
her visit. He concluded by stating: “China is anxious to purchase more U.S. energy
equipment. In my opinion, they are waiting for positive signals from senior Clinton
Administration officials before they open the floodgates (as they did for Helmet (sic) Kohl
when he visited China this week).” The Secretary annotated the Acting Assistant


                                              23
Secretary’s memorandum by stating that: “we need to take immediate action on trip to
China . . . .”

On April 13, 1994, the Chairman of the State Science and Technology Commission invited
the Secretary to attend a July 1994 Round Table Conference on China’s Agenda 21 from
July 7-9, 1994.

The Secretary also received a December 13, 1994, invitation from the President of the
United States-China Business Council to address the Council’s first In-Country Annual
Meeting, “China Operations ‘95,’ ” on February 24, 1995.

On February 6, 1995, President Clinton signed a letter to each delegate welcoming them
as members of the “Presidential Mission to China on Sustainable Energy and Trade.” The
President wrote that: “Your mission will help to strengthen ties between our two nations,
advance sustainable development, and promote U.S. investment in China.”

Clinton Administration Delegation on Sustainable Energy and Empowerment to South
Africa

We were told by DOE officials that in an October 1994 State Visit to the United States,
President Mandela asked Secretary O’Leary to visit South Africa. President Mandela’s
visit culminated in establishment of the U.S.-South Africa Binational Commission headed
by Vice President Gore and Deputy President Mbeki. Secretary O’Leary serves as a
member of this Commission. A record of President Clinton’s October 5, 1994, News
Conference with President Mandela includes a statement by President Clinton that the
United States would send people to South Africa to help it address many of its challenges.

A February 17, 1995, letter from Minister R. F. Botha, Minister of Mineral and Energy
Affairs, to Ambassador P. N. Lyman, U.S. Ambassador to South Africa, provided
information on possible “areas of cooperation with the USA” regarding Secretary
O’Leary’s visit to South Africa. One area cited was: “Support towards the development of
energy management consulting activities, including partnerships or collaborative
agreements with USA companies.”

On August 15, 1995, President Clinton signed a letter to each delegate welcoming them as
members of the “Mission on Sustainable Energy and Trade Development to the Republic
of South Africa.” The President wrote: “Your work will strengthen our ties with South Africa,
promote private investment, assist in building capacity, and facilitate economic growth and
efforts to protect the environment.”

Management Comments. Management stated that host country Ambassadors located in
Washington, D.C., directly extended invitations from their governments and provided
assistance to prepare DOE for the respective trade missions. Specifically:



                                             24
        - India’s Ambassador Ray personally visited Secretary O’Leary to reiterate the
          invitation from the Prime Minister and to inform her that Minister Salve would be
          her official host.

        - Pakistan’s Ambassador Lohdi visited Secretary O’Leary to convey the Prime
          Minister’s invitation personally.

        - Vice Premier Zou Jiahua of the People’s Republic of China first invited the
          Secretary to China during a visit to the Department, and Chinese Ambassador
          Li confirmed the invitation on behalf of the official host, Chen Jihua, Chairman of
          the State Planning Commission.

Secretary O’Leary’s Reasons for Leading These Trade Missions

In an “Insight on the News” article in Insight magazine dated March 11, 1996, Secretary
O’Leary wrote that the trade missions to India, Pakistan, China, and South Africa helped
advance important international economic and policy objectives and served vital U.S.
financial and strategic trade needs. The Secretary also wrote that the trade missions
encouraged economic, legal, and policy reforms that spurred investment and access by
U.S. energy firms.

Secretary O’Leary cited five specific reasons for picking India, Pakistan, China, and South
Africa for trade missions:

       First, because of the opportunity for U.S. firms;

       Second, the trade missions fulfilled congressional intent of the Energy Policy Act of
       1992 and the Export Enhancement Act of 1992;

       Third, because DOE was asked both by the White House and the highest officials of
       the host nations to dedicate its expertise to their energy needs;

       Fourth, the United States has vital economic, energy, environmental and security
       interests in each of these nations; and

       Fifth, DOE’s nuclear and energy policy expertise advances U.S. interests in these
       countries.

Secretary O’Leary also wrote that India, Pakistan, and South Africa sought the
Department’s assistance in helping to establish a market-based policy and regulatory
structure for what have been government-controlled energy sectors.

  5. Planning the Trade Missions



                                              25
We were told by several senior DOE officials that Secretary O’Leary relied on certain key
staff members to plan the trade missions. These key staff members included           (1) the
then Chief of Staff; (2) the then Special Assistant to the Secretary for Policy; (3) the then
Director, Office of Scheduling and Logistics; and (4) a Management Assistant from the
Office of Policy. The Management Assistant was identified by the Secretary as an
“International Trip Coordinator” (Trip Coordinator) in letters sent to trade mission
delegates.

We interviewed each of these staff members to determine their respective role in planning
for the trade missions. The Chief of Staff said his responsibilities for the trade missions
were to make sure that (1) the right private sector people were involved with the trade
missions; (2) the issues were clearly identified and covered; and (3) the trade missions
communicated what DOE wanted accomplished. The Chief of Staff also said he was
responsible for liaison with White House officials in planning for the trade missions. He
identified himself, along with the three employees identified in the preceding paragraph, as
the employees involved in the “day-to-day” planning for the trade missions. He also said no
one individual had responsibility for planning the trade missions. Secretary O’Leary said
the Chief of Staff oversaw the planning process but that the planning process was a team
effort.

The Special Assistant to the Secretary for Policy (Special Assistant for Policy) said he had
the “substantive lead” for the trade missions. He said substantive outcomes drove the
trade missions in terms of who was taken on the trade missions, scheduling, and what was
to be accomplished. The Chief of Staff and the Director, Office of Scheduling and
Logistics, characterized the Special Assistant for Policy as being “overall in charge” of the
trade missions on a daily basis. The Special Assistant for Policy said this was a “fair
assessment.” He also said he chaired trip planning team meetings for the trade missions.

The Director, Office of Scheduling and Logistics, said no one person was responsible for
planning the trade missions. She said the Chief of Staff was responsible for the policy
portion of the trade missions, the Special Assistant for Policy was the day-to-day
coordinator, and the Trip Coordinator was responsible for arranging participation by
businesses. The Director, Office of Scheduling and Logistics, said she was responsible
for arranging the Secretary’s schedule and ensuring that the Secretary’s requirements
were included on the schedule. She also said the Secretary was a “hands-on” Secretary
and that she and the Chief of Staff would go to the Secretary if a decision was needed from
the Secretary concerning a trade mission.

The Trip Coordinator said for the trade mission to India she was assigned to arrange the
business delegation’s transportation and schedule. She also said she was in charge of
assisting the Special Assistant for Policy with day-to-day planning for the subsequent trade
missions to Pakistan, China, and South Africa. She also said she was “the only DOE
employee who was assigned full-time on a day-to-day basis” to plan for the trade missions
to Pakistan, China, and South Africa. She said she had no prior experience in this type of
work, learned on the job, and had no procedures to follow for her duties.

                                              26
Management Comments. Management stated that the role of Trip Coordinator did not
exist for the India mission; that the Chief of Staff did not attend the India mission; and that
the Special Assistant did not attend the South Africa mission.

Inspector Comments. We acknowledge that the role of Trip Coordinator did not exist for
the India trade mission even though she was involved in preparing for the trip. It should
also be noted that the Chief of Staff was involved in the planning for the India trade mission
and the Special Assistant was involved in the planning for the South Africa trade mission
even though neither individual attended the respective trade mission.

Trade Mission Trip Planning Teams

For each trade mission, DOE established a trip team of 30 to 40 people to plan and
discuss trip details. We were told by the Trip Coordinator that these teams would meet
once or twice a week for 1/2 hour to two hours to discuss the logistical and substantive
plans for the respective trade mission. The Trip Coordinator also said she and the Special
Assistant for Policy gave assignments to the trip planning team members. The trip
planning teams were also responsible for developing a proposed list of non-Federal
participants from industry and non-governmental organizations to be included on the trade
missions. A more detailed discussion of the process used in making these selections is
described in Section B-3, “Selection of Non-Federal Participants.”

The trip planning teams for the four trade missions were mainly comprised of DOE
employees from various program offices and employees involved in arranging the logistical
portion of the trade missions. Several DOE officials told us that the Special Assistant for
Policy led the meetings for each of the planning groups established for the four trade
missions. The Trip Coordinator said that attendance at the planning meetings was not
mandatory and that team members might not attend some meetings.

The trip planning groups did not have a formal title but were referred to as “trip teams.” In a
letter dated March 29, 1996, to the Chairman, Subcommittee on Oversight and
Investigations, House Committee on Commerce, DOE’s General Counsel wrote that the
“International Coordinating Committee” was a name coined during the trade missions for a
group otherwise known as the trip team. He also wrote that there was no formal date when
the “International Coordinating Committee” was established.

We were provided documents by the Trip Coordinator that listed the members of the trip
planning teams for the four trade missions. The organization and composition of the trip
planning teams varied for each trade mission. For the trade mission to India, the trip
planning team was comprised of a “Chairperson,” “Coordinators,” “DOE members,” “Non-
DOE USG (United States Government) members,” and “Stakeholders.” The document
shows the names of the individuals assigned but does not identify any responsibilities of
the individuals. Under the “Chairperson” heading, two DOE employees were listed: the
Special Assistant to the Secretary for Policy, and the Assistant Secretary for Policy. Under

                                               27
the “Coordinators” heading, two DOE employees were listed: an employee in the Office of
International Energy Relations, Office of Assistant Secretary for Policy; and a Special
Assistant in the Office of the Secretary.

Based on documents provided by the Trip Coordinator, the trip planning team for the trade
mission to Pakistan consisted of a “Management Team,” a “Logistics Group,” and a
“Substance Group.” The “Management Team” included five DOE employees: the Special
Assistant to the Secretary for Policy; the Director, Office of Scheduling and Logistics; the
Director, Office of International Energy Relations, who was identified as the “Substance
Lead;” an employee in the Office of Administrative Services, who was identified as the
“Logistics Lead;” and the Trip Coordinator assigned to assist the Special Assistant to the
Secretary for Policy. The Trip Coordinator is identified as the “Glue.” Individuals listed
under the heading “Logistics Group,” are listed under their respective DOE office heading.
Ten employees listed under the “Logistics Group” had logistics functions such as
administration, budget, security, or communications identified after their name. Four
individuals did not have a logistics function associated with their name.

For the trade mission to China, the document identifying the trip planning team contained
two pages. The first page lists 11 DOE employees without a general heading and
identifies their respective organization affiliation, phone number, and facsimile number.
The second page lists 31 DOE employees under the heading “SUBSTANCE/POLICY” and
also includes their organization affiliation, phone number, and facsimile number. There
was no breakout of responsibilities.

For the trade mission to South Africa, the trip planning team consisted of a “Management
Team,” a “Logistics Group,” and a “Substance Group.” The “Management Team” included
nine DOE employees and identified the same two individuals, as shown above on the
Pakistan trip planning team, as being assigned as the “Logistics Lead” and the “Glue.”
Under the “Logistics Group” were listed six DOE offices, but no DOE employee names
were identified. Under the “Substance Group” were listed 12 DOE offices. At least one
DOE employee’s name was identified under each office heading.

Management Comments. Management stated that each trade mission trip “had a team
that included a lead staff member for administration, a lead on communications, a lead on
security and a lead on advance. We have provided organization charts to this effect.”

Inspector Comments. We had been provided one organization chart which was for the
China trade mission trip. It was a block and line diagram identifying 10 names who
comprised the “Management Team,” with four blocks shown under the Management Team.
These four blocks were: Logistics, Advance Team, Business Liaison, and
Substance/Policy. One name was listed in each of the four blocks. We contacted a DOE
official to determine if this chart was the “organization charts” cited in DOE’s comments.
The DOE official subsequently provided us a chart for the Pakistan trade mission trip,
which was entitled “Draft-Trip Team Structure.” The chart identified a central block entitled
“Team Leader,” with lines leading from this block to other blocks that were entitled:

                                             28
Advance, Business Liaison, Logistics, Security, Communications, Administration, and
Substance. No names were included on the chart.

POD Establishment, Organization, and Activities

One aspect of trade mission planning was the pre-trip planning for trade mission
subgroups called “PODs.” PODs were organized into energy sector subgroups with
individual delegates assigned to subgroups to develop common outcomes, common
themes, and common issues for the mission. For example, trade mission participants
whose area of expertise was in, or whose companies did business in, the financial area
would typically be assigned to the “Finance POD.” The PODs for each of the four trade
missions were as follows:

       - India: Independent Power, Renewable Technology, Energy Efficiency and
         Planning, Project Finance and Trade Development, Environmental Issues, and
         Clean Coal and Technology Deployment.

       - Pakistan: Finance, Electric Generation, Transmission and Distribution,
         Renewable Resources, Energy Efficiency and Demand Side Management, Oil
         and Gas, and Coal.

       - China: Finance, Environment, Clean Coal, Oil and Gas, Renewable Energy,
         Electric Power, and Energy Efficiency.

       - South Africa: Electricity, Oil and Gas, Renewables, Efficiency, Research and
         Development, and Finance.

PODs were placed under the leadership of senior DOE technical experts. POD
membership typically included the leader, and between five and eight representatives from
Government agencies and private businesses. We were told PODs worked together
toward common outcomes under the guidance of their leader. We were also told this work
began prior to departure of the trade mission, at which time PODs were tasked to identify
goals to be accomplished during the in-country portion of the trip. These goals were
recorded in a chart referred to as a “Matrix” within the Department.

As an example of POD goals, on the first trade mission to India, the Renewable
Technology POD matrix contained three goals: (1) “Increase the role of renewables in
India’s sustainable energy plan,” (2) “Reduce the risks of doing business in India,” and (3)
“Begin the Partnership.” Anticipated benefits of accomplishing these goals were identified
on the matrix as were key events leading up to accomplishment of the goals. For the first
goal, an example of one of the key events listed was “Sign the Renewable Energy
Agreement.” For the second goal, an example of one key event was “Reduce tariffs on
renewable energy equipment.” For the third goal, the key event was to “Announce 8 U.S.
Indian joint ventures.”


                                             29
POD goals were developed and other POD business discussed during conference calls
between the various POD representatives, which took place prior to the trade missions’
departures. In some cases, POD meetings were conducted in Washington, D.C., in
advance of the trade missions. However, we were told that problems with conducting all
necessary POD business prior to trade mission departure were that: (1) conference calls
and meetings held before a trade mission were not always well attended; and (2)
companies would send their Washington, D.C., representatives to the POD meetings
rather than the principal who was traveling on the trade missions.

Prior to departure, PODs were met at the airport by the Secretary and her staff. (For the
trade mission to China, the Secretary met the PODs in Shanghai.) At the airport, the
PODs would receive a counterintelligence briefing, discuss itineraries, and receive a
delegation pin from the Secretary. We were told by the Secretary that key reasons she
wanted POD members to accompany her on the aircraft were because itineraries were
always changing, PODs were focusing on four or five POD-specific policy issues during in-
flight POD discussion meetings, and POD members could discuss who would be the POD
spokesperson and decide on what message to convey during in-country presentations.

We were told, that for the first trade mission, several business representatives were
assigned to several different PODs, which made simultaneous participation of in-flight
POD meetings on-board the delegation’s aircraft difficult. For the China mission, DOE
provided an agenda to guide in-flight POD discussions. According to this agenda, in-flight
POD work assignments included an hour-long delegation meeting in which DOE
representatives described the overall trip purpose, trip schedule, “POD” approach, and
availability of materials to POD members. During an approximate nine-hour segment of
the flight from Anchorage, Alaska, to Shanghai, China, POD members were tasked, based
on the agenda, to “Try to accomplish” 10 items, as shown in Exhibit 1, which reproduces
the agenda.




                                            30
EXHIBIT 1




            31
EXHIBIT 1




            32
Once in country, the Secretary said she held daily morning meetings with the PODs to
discuss the day’s upcoming schedule. Other in-country POD activities included signings,
breakout sessions, site visits, and bilateral meetings with host country officials.

We were told by DOE officials that PODs working together in-country toward common
outcomes resulted in nonmonetary trade mission benefits. For example, during the
Pakistan mission, each POD made policy recommendations to the Government of
Pakistan on how to improve the climate for U.S.-Pakistan cooperation in their specific
areas. These recommendations were presented at a closing plenary session that served
as a basis for a presentation to Pakistan President Farooq Leghari in Islamabad. The
nonmonetary outcomes of the four trade missions are discussed in greater detail in
Section F, “Trade Mission Outcomes,” of this report. The Secretary told us the
effectiveness of the PODs is evidenced by the fact that some POD teams “still have a
relationship and their work is continuing.”

Preadvance and Advance Planning

For the trade missions to Pakistan, China, and South Africa, DOE sent a preadvance team
to the host countries to perform substantive and administrative work with U. S. Embassy
and host country officials in advance of the trade missions. For the trade mission to
Pakistan, two DOE employees were in Pakistan before the main body arrived. Six
individuals were on the preadvance team to China, and eight were on the preadvance
team to South Africa. We were told by DOE officials that the preadvance teams were in
daily contact by telephone and facsimile machine with DOE trip planners in Washington,
D.C. Their responsibilities were to help set the final agenda with the U.S. Embassy and
the host country and physically inspect the hotels, meeting sites, and other locations that
the main body of the trade mission would be visiting.

In addition to the preadvance teams, DOE also sent advance teams to India, Pakistan,
China, and South Africa. The advance teams would travel to the host country generally
about a week in advance of the main body. Advance teams were responsible for security,
communication, administration, press, graphics, and substance arrangements in
preparation of the main body. We determined that 25 individuals were advanced to India,
35 to Pakistan, 56 to China, and 30 to South Africa.

Size of the Trade Missions

The “Official Delegation” for the trade missions included designated DOE employees and
those individuals listed as “Business Delegates.” The Business Delegation included
individuals from U.S. businesses, non-governmental organizations, other Federal
agencies, and DOE management and operating contractors. The trade missions also
included advance teams to support the Official Delegation. In addition, other businesses
that were not part of the Business Delegation could attend certain in-country functions such
as energy summit meetings open to the general public; business signing ceremonies; and

                                             33
press conferences. Section B, “Trip Participants,” of this report identifies the size of each
of the Secretary’s international trips, including the trade missions, and discusses how we
determined the number of trip participants.

The Chief of Staff said the size of the trade missions was dependent on the “major
substantive issues” being discussed on the trade missions. He said support people were
needed to “move 100 people around” to all the separate events. He also said that for each
of the trade missions he “cut back the size of the security detail.” The Chief of Staff said
they “took too many business folks” on the trade missions and that “Secretary O’Leary just
did not want to say no” to anyone.

The Special Assistant to the Secretary for Policy said DOE’s trade missions, unlike
Department of Commerce trade missions, were “deep into policy.” He said specific
recommendations were provided to each of the host countries to improve their energy
business environment through identification of policy, legislative and regulatory barriers,
and this process required additional staff.

Regarding the size of delegations, the Director, Office of Scheduling and Logistics said
“we wanted as many people as we could.” She also said that the processes of
determining the number of delegates, and which aircraft to procure, were occurring
simultaneously.

Management Comments. Management stated that the Director’s use of the term “people”
meant business delegates, not Federal employees or any other participants on the trips.

The Trip Coordinator said that after the trade mission to India, DOE officials knew they
wanted approximately 50 to 60 business delegates on the Government-chartered aircraft
and about 10 to 15 DOE officials on board. She said her obligation was to ensure that the
plane was full.

In an “Insight on the News” article in Insight magazine dated March 11, 1996, Secretary
O’Leary wrote that the number of staff involved on the trade missions “was related directly
to the policy objectives and logistical demands of each mission.” For example, she wrote
that, in India, working sessions were held with eight senior government officials and the
agenda included a two-day energy summit with more than 500 participants; a finance
roundtable; a government-to-government roundtable to address recommendations
emerging from the energy summit; eight bilateral meetings; a briefing for U.S. business
representatives by the U.S. Embassy; five site visits; seven working meals; and two signing
events. The Secretary wrote that each of the activities required staff-level policy expertise
from the Department. She also wrote that the trade missions could have been completed
with fewer Federal workers, but the same accomplishments and level of substantive
exchange could not have been achieved if the numbers had been cut significantly.

Internal Control Procedures


                                              34
We found that DOE lacked written internal control procedures for planning, coordinating,
and executing international trade missions. As a result, the roles and responsibilities of
those DOE employees involved in planning and executing the trade missions were not
always clearly defined. In addition, no one in DOE was assigned responsibility for all the
planning, coordination, and execution of the trade missions. Specifically, we found the
process used for the trade missions resulted in a lack of control, primarily in the areas of
administrative and logistical support. For example:

       - Participation: No one in the department could provide an accurate list of trip
         participants. None of the available records from DOE could individually identify
         who actually participated on the Secretary’s foreign trade missions. We found
         inaccuracies on each list. We were unable, therefore, to rely on any one trip
         participant list and had to develop a composite list by comparing several lists.

       - Invitational travel: Procedures for invitational travel were not followed. Procedures
         for invitational travel require that travel to other than a DOE post of duty be
         approved in writing by a principal officer. We found travelers who were
         designated as invitational travelers, but for whom prior written approval and
         justification had not been prepared by a principal officer of the Department.

       - Obtaining embassy support: DOE did not identify a single individual who would
         be responsible for ordering goods and services. As a result, funds were obligated
         and costs incurred without adequate internal controls. In addition, DOE is unable
         to apply all of the costs to the trips based on the documentation provided by the
         Department of State.

       - Full cost recovery: DOE had established draft policy and procedures that would
         require full cost recovery of air transportation and other common travel costs of the
         Department’s international travel. For the trade mission to India, however, non-
         Government travelers were charged the coach-fare equivalent for air services
         provided. The Chief Financial Officer has issued interim policy and procedures,
         which state that all private sector participants will be required to fund their full
         share of the trip costs including air and ground transportation, lodging, and
         administrative and other expense costs.

       - Procurement of aircraft: Different procurement processes were used for each of
         the trade missions for acquiring aircraft charter services. We found travelers were
         not scheduled for the flight until late in the planning process, and multiple aircraft
         were booked for a single in-country trip in South Africa.

Each of these areas will be discussed in detail in the remaining sections of the report.

   RECOMMENDATION 1: We recommend the Secretary assign to a senior official the
responsibility for developing and implementing written international travel procedures for
planning, coordinating, and executing all facets of international travel.

                                              35
In a letter dated March 22, 1996, to the Chairman, Subcommittee on Oversight and
Investigations, House Committee on Commerce, DOE’s Office of General Counsel wrote
that the Department began preliminary work on a new travel policy after the India trip and
that the first complete draft of the policy was completed in January 1996, and an interim
policy issued in March 1996. On April 15, 1996, the Department issued DOE Notice (N)
551.1, “International Travel,” “for simultaneous use and coordination.” The Office of
General Counsel also wrote to the Chairman that the Department hoped to complete and
issue the final international travel policy this summer.

Management Update on Status of Corrective Actions. Management stated that a redraft of
DOE N 551.1, “International Travel,” has been finalized and issued July 31, 1996, as DOE
Manual (M) 551.1-1, “International Trips,” and DOE Policy (P) 551.1, “International Trips.”
DOE P 551.1 states that all international trips by the Secretary, Deputy Secretary, and
Under Secretary (Principal Department Officers) as well as all international trips by others
at Department expense costing at least $50,000 (together covered trips) will require the
assignment of a Senior Trip Official who is responsible for all aspects of the trip.

Inspector Comments. We consider management’s actions to be responsive; therefore,
this recommendation may be closed.

B. Trip Participants

   1. Introduction

We sought to identify who traveled on the Secretary of Energy’s foreign trips via
Government-arranged air. We defined Government-arranged air travelers as travelers who
flew on the chartered aircraft regardless of whether the Government paid for their seats,
and travelers who flew via commercial air paid for by the Government. Identification of the
trip participants was necessary in order to (1) determine the total number of trip
participants, (2) determine their justification for participation on the trips, and (3) include
applicable DOE travel-related costs as part of the cost of each trip.

Table 3 shows the number of Federal and non-Federal participants we identified who
traveled as part of, or in support of, the Secretary’s foreign travel. Federal participants
included DOE and other Federal agency employees. Non-Federal participants included
DOE M&O and support services contractor employees, non-Federal invitational travelers,
and business and non-profit organization participants who used Government-arranged air.
However, we excluded from the non-Federal business participants those business
travelers who arrived at a foreign trip destination on their own, without Government-
arranged air.




                                              36
                                          TABLE 3
                           NUMBER OF FOREIGN TRAVEL PARTICIPANTS
 TRIP            DATES OF                                                                                                   PARTICIPANTS
NUMBER             TRIP              COUNTRY                                               PURPOSE                         FEDS NON-FEDS

                     1993

      1            June 1-5             France        International Energy Agency Ministerial Meeting                       8      0

      2        Sept 24-Oct 2            Austria       International Atomic Energy Agency General Conference                 35     0
                                        Russia        Gore-Chernomyrdin Commission on Energy and Space
                                                             Energy Policy Committee

      3           Oct 22-26            England        Keynote address to the "Oil & Money" Conference                       13     0

      4           Dec 12-17             Russia        Gore-Chernomyrdin Commission on Energy and Space **                   6      0

                     1994

      5            Feb 5-8           Ivory Coast      Head of the Presidential Delegation for the Funeral of                7      0
                                                      President Houphouet-Boigny **

      6           July 7-15              India        Presidential Mission on Sustainable Energy and Trade                  42     38

      7        Aug 31-Sept 5           Belgium        50th Anniversary of the Liberation of Belgium                         6      0

      8          Sept 16-25             Austria       International Atomic Energy Agency General Conference                 65     47
                                       Pakistan       Presidential Mission on Energy Investment


      9           Dec 12-19             Russia        Gore-Chernomyrdin Commission on Energy and Space **                   19     0
                                       Sweden         Tour of Swedish Nuclear Waste Facility

                     1995

     10            Feb 9-25            India          Return Journey to India                                               85     53
                                     Hong Kong        Prelude to Presidential Mission to China
                                       China          Presidential Mission on Sustainable Energy and Trade

     11          May 17-27             France         International Energy Agency Ministerial Meeting                       30     2
                                      Azerbaijan      Principal Speaker at International Caspian Oil & Gas Exhibition **
                                        Italy         Keynote Speaker at the 1995 World Geothermal Conference

     12           June 7-11          Costa Rica       Joint Implementation Workshop/Signature of Agreement                  14     1

     13        June 26-July 1           Russia        Gore-Chernomyrdin Commission on Energy and Space                      14     0

     14         August 18-28        South Africa Clinton Administration Delegation on Sustainable                           64     50
                                                 Energy and Empowerment to South Africa

     15          Sept 13-20          Czech Rep.       U.S. Country Studies Workshop; Center for Clean Air Policy            25     8
                                                      Joint Implementation Project
                                        Austria       International Atomic Energy Agency General Conference

     16        Nov 29-Dec 7         South Africa Gore-Mbeki Binational Commission **                                        12     8

*Includes all Federal (Feds) and non-Federal (Non-Feds) individuals identified as using Government-arranged air.
For those trips with multiple destinations, the numbers reflect individuals that were at any of the trip destinations.
**Some air transportation paid for by another Government agency.




                                                                               37
Our review focused on the four trade mission trips, which were to India, Austria/Pakistan,
India/Hong Kong/China, and South Africa. The total number of participants using
Government-arranged air for each of the four trade missions is displayed in Table 4.

A comparison of business participants who paid for transportation with the participants for
whom the Government paid is shown in Table 5. The number of participants used in
making this comparison is different from the number of participants in the other participant
tables. This comparison includes not only the business participants who traveled via
Government-arranged air, but also business participants listed in the Department’s official
trip reports who made their own air transportation arrangements. For those business
participants who made their own air transportation arrangements, we did not verify to any
source other than the trip reports that they actually participated in the trade mission trips.



                                     TABLE 4
                                  TRADE MISSION
                          PARTICIPANTS IDENTIFIED BY OIG

                                                                    Participants*
             Country Destination                       Feds          Non-Feds                Total

                        India                              42               38                 80

                  Austria/Pakistan                         65               47                112**

              India/Hong Kong/China                        85               53                138***

                    South Africa                           64               50                114

       *Includes all Federal (Feds) employees and non-Federal employees (Non-Feds) identified as using
       Government-arranged air.
       **Department commented that 19 participants who went to Austria did not go on to Pakistan on the
       Trade Mission.
       ***Department commented that 14 participants who went to India did not go on to China on the Trade
       Mission.




                                                      38
                                               TABLE 5
                                     TRADE MISSION PARTICIPANTS
                                    WHO PAID FOR TRANSPORTATION
                                   COMPARED TO TOTAL PARTICIPANTS

                                                                                       Participants
                                           Business Participants                       That Federal         Total
         Country Destination             Who Paid For Transportation*               Government Paid For Participants**

                    India                                   37                                   52                        89

            Austria/Pakistan                                69                                   75                        144***

        India/Hong Kong/China                               71                                  101                        172***

               South Africa                                 54                                   78                       132

        *Business participants including those identified in respective trip reports who did not use Government-arranged air.
        **Note that the total participants in this chart do not agree with total participants in other participant charts because we
        included travelers who did not use Government-arranged air.
        ***Department commented that 19 participants who went to Austria did not go on to Pakistan on the Trade Mission and
        14 participants who went to India did not go on to China on the Trade Mission.




We identify in Table 6 the mode of travel for the Federal and non-Federal participants who
traveled on the four trade mission trips via Government-arranged air. We categorized the
modes of travel as chartered flights, scheduled commercial flights, or both. The “both”
modes of travel category applies if the participant traveled one-way via chartered air, and
one-way via scheduled commercial air.




                                                                     39
                                                  TABLE 6
                                          TRADE MISSION PARTICIPANTS
                                  BY MODE OF GOVERNMENT-ARRANGED AIR TRAVEL

                                                                                    AUSTRIA/              INDIA/HONG
              CATEGORIES OF                             INDIA                       PAKISTAN              KONG/CHINA               SOUTH AFRICA
               PARTICIPANTS                    Charter Comm.      Both*    Charter Comm.      Both*   Charter Comm.      Both*   Charter Comm.   Both*

   FEDS                                          16        19        7       21        38       6        15       52      18      20      33      11


   OTHER TRAVEL PAID BY DOE**                     5        2         2          8      1        1        8         8       -       6      5       3


   NON-FEDS                                      13         -       16       29        1        7        25        -      12      30       -      6



   TOTAL***                                      34        21       25       58        40       14       48       60      30      56      38      20

*Participants traveled one way by charter air, one way by commercial air.
**Includes M&O contractors, Invitational Travelers, and Support Services contractors and subcontractors.
***Department commented that 19 participants who went to Austria did not go on to Pakistan on the trade mission and 14
participants who went to India did not go on to China on the trade mission.




                                                                           40
2. Identifying Who Participated

In order to identify trip participants, we reviewed passenger lists for chartered flights, the
Department’s official trip reports, travel authorization listings, travel voucher listings, and
other lists prepared by DOE.

Basis for Inclusion of Participants

Secretarial foreign trip participants included in our tabulation were individuals who traveled
by Government-arranged air to one or more foreign destinations of the trip. Participants
included business delegates, Federal employees, and management and operating and
support services contractor employees. Secretarial foreign trip participants were included
in our tabulation if (1) they traveled to a foreign destination visited by the Secretary
because of the Secretary’s trip or (2) they spent at least half of their time at the foreign
destination supporting the Secretary’s trip even if they would have traveled to the foreign
destination for other reasons.

We grouped the travelers into the preadvance trip or main trip as appropriate. Participants
on the preadvance trip included Federal employees and M&O and support services
contractor employees who traveled to a destination and returned to the U.S. prior to the
Secretary’s departure from the U.S. Even if the preadvance participants did not return to
the trip destination while the Secretary was there, these individuals were included in our
charts as trip participants. Note that some preadvance participants returned to the trip
destination while the Secretary was there. These participants were counted twice, since
they were on two distinct trips, preadvance and main.

Main trip participants were categorized into one of two phases: advance phase or the
main body phase. We grouped Federal and non-Federal participants who traveled on a
Secretarial trip prior to the Secretary’s arrival at a particular foreign destination, and
remained there during the Secretary’s visit, into the advance phase. For example, during
all of the foreign trips, security personnel traveled in advance of the Secretary’s arrival,
were present when she arrived, and provided security during her visit.

We grouped Federal and non-Federal participants who traveled on a Secretarial trip
during the same time frame that the Secretary traveled to a particular foreign trip
destination into the main body phase. For example, during the trip to China, some
participants traveled on the Secretary’s commercial flight from Hong Kong to Shanghai,
and others flew to Shanghai on the same day on a charter flight from Washington Dulles
Airport. The charter flight made a stop at a San Francisco, California, airport to pick up
West Coast travelers. Table 7 shows the number of participants for each of the four trade
mission trips by phases as described above.




                                                41
                                           TABLE 7
                                        TRADE MISSION
                                  PARTICIPANTS BY PHASE OF TRIP*
                                                                       INDIA/HONG KONG/
                               INDIA         AUSTRIA/PAKISTAN**             CHINA****            SOUTH AFRICA
       PHASE            Feds      Non-Feds      Feds      Non-Feds       Feds      Non-Feds       Feds      Non-Feds

  PREADVANCE              0            0        2***          0            5            0           8           0

  ADVANCE                22            3         32           3           49            7           25          5

  MAIN BODY              20            35        31           44          31           46           31          45


  TOTAL                  42            38        65           47          85           53           64          50


 *Participants used Government-arranged air.
 **Department commented that 19 Participants who went to Austria did not go on to Pakistan on the trade mission.
 ***One of the two Federal employees who performed preadvance work returned to the U.S. before the Secretary's
 departure from the U.S. The other participant did not return the U.S., but went instead to England and Austria prior
 to returning to Pakistan to do advance work.
 ****Department commented that 14 participants who went to India did not go on to China on the trade mission.




Function of Participants on Trips

The specific functions of the participants were security, communications, administration,
substance, and business delegate. Table 8 identifies the number of participants on each
of the four trade missions according to their trip functions. Where possible, we used the
functions of the participants as shown on the trip participant lists that DOE had previously
provided to the House Subcommittee on Oversight and Investigations, Committee on
Commerce.




                                                         42
                                         TABLE 8
                                      TRADE MISSION
                                PARTICIPANTS BY TRIP FUNCTIONS
                                                       AUSTRIA/            INDIA/HONG KONG/
                                 INDIA              PAKISTAN                       CHINA            SOUTH AFRICA
      FUNCTION            Feds      Non-Feds      Feds        Non-Feds      Feds      Non-Feds       Feds   Non-Feds

SECURITY                    9                 -   15                   -     17                 -     7             -

COMMUNICATIONS              3                 -    7                   -      8            4          2        3

ADMINISTRATION              5                 -   10                   -     15                 -     8             -

SUBSTANCE                  17            5        29              3          37            4          39       4

'BUSINESS DELEGATE          8            33        4              44          8            45         8        43



       TOTAL*              42            38       65              47         85            53         64       50

 *Department commented that 19 participants who went to Austria did not go to Pakistan on the trade mission and 14
 participants who went to India did not go on to China on the trade mission.




Security employees provided executive protection for the Secretary on the 16 foreign trips.
Some of these security personnel advanced to the destinations and investigated prior to
her arrival the potential security threats at airports, hotels, and the travel routes of the
Secretary. Upon her arrival, these advance personnel, along with the security person who
accompanied the Secretary from the U.S., provided physical protection for the Secretary at
the destinations.

Advance participants set-up and coordinated the use of computers, direct telephone lines,
fax machines, and other equipment as part of the communications function.
Communications participants set-up a command post and staff rooms in order, for
example, to facilitate the Secretary in communicating directly with DOE Headquarters and
with the embassy. Individuals who made and/or coordinated logistical and other trip
arrangements with the embassies, foreign government officials, and hotel management
were listed as administration. Other administrative activities included arranging for
working rooms, local transportation for the official and business delegations, cellular
phones, and command post rooms. Administration personnel traveled as preadvance and
advance, and may also have traveled as part of the main body phase.

DOE and contractor employees who provided expertise concerning the scheduled trip
agenda’s topics were classified as substance participants. Other substance participants
may have included POD leaders, policy experts, and persons with specific expertise
relative to the foreign countries visited. As previously noted, where possible, we used the
functions of the participants as listed on the Department’s trip participant lists submitted to

                                                         43
the House Subcommittee on Oversight and Investigations, Committee on Commerce. On
the China trade mission, included among the substance participants was a DOE employee
who is an expert on the agenda topic of joint implementation concerning the reduction of
atmospheric pollutants. Substance participants on the South Africa trade mission included
Federal employees who had been appointed to the Gore-Mbeki Binational Commission.
Some of the Commission personnel subsequently traveled with Vice President Gore and
the Secretary on the South Africa Gore-Mbeki trip, which was later in 1995. Also, it should
be noted that preadvance participants often included substance participants. For example,
contractor personnel on the preadvance trip for the Gore-Mbeki Commission to South
Africa provided substantive support.

Management Comments. Management stated that:

        “The support personnel on any Secretarial foreign trip are some of the most
        experienced personnel in dealing with these matters. They offer particular insight
        into ‘doing business’ internationally and confirm that it is not easy or simple.

                                      * * * * * * *

       “Contractor participants in the South Africa trip of November 29, 1995 are
       mischaracterized in Table 3 - Number of foreign Travel Participants. Five
       contractors were incorrectly associated with the trip as ‘pre-advance’. Their efforts
       were part of the ongoing work of the Sustainable Energy Committee and had no
       direct relevance to the Secretary’s trip.”

Inspector Comments. Management’s comment regarding the contractor participants in the
South Africa trip was discussed with the Office of International Policy official who drafted
the comment. She said that she meant to say that the contractors had no direct relevance
to the preadvance for the Secretary’s Gore-Mbeki trip because she thought preadvance
meant logistical support, such as selecting appropriate hotels. She said she thought that
preadvance work did not include substance support. She also said that she told the
contractors that they were to provide substance support for the Secretary’s Gore-Mbeki’s
trip to South Africa. She also said that as substance people, she agreed with our inclusion
of the contractors as preadvance support, but said that the report should be changed to
clearly indicate that preadvance work included substance support.

In addition to the above functions, participants were also identified as business delegates.
These included business and non-profit organization participants, invitational travelers, and
DOE, M&O contractor, and other Federal agency employees who were identified in the
Department’s official trip reports as business delegates.

Problems Associated with Identifying Trip Participants




                                             44
As previously stated, in order to identify trip participants, we reviewed passenger lists for
chartered flights, the Department’s official trip reports, travel authorization listings, travel
voucher listings, and other lists prepared by DOE.

In general, we found that passenger lists for chartered flights had names crossed out,
names written on the sides of the lists, and illegible handwritten names. For example, the
passenger list from Cape Town to Johannesburg contained 15 names that were crossed
out, and several names written in the margins of the list.

We could not use the Department’s official trip reports by themselves to identify who
participated on the 16 trips. Official trip reports, according to DOE Order 1500.3 titled,
“FOREIGN TRAVEL AUTHORIZATION,” are required to be completed within 30 days after
the trip. We found that the Department’s official trade mission trip reports did not include in
the list of participants the preadvance or advance participants. The Department’s official
India trade mission trip report also did not include a list of DOE or support services
contractor employees who were part of the trip’s main body phase. We also found that the
Department’s official trip reports for the trade mission trips only listed the official
delegation, who were primarily substance participants.

DOE Order 1500.3 requires summary data from foreign travel authorizations for DOE and
contractor employees to be entered into the current Office of International Technology
Cooperation’s foreign travel information system. We obtained and reviewed trip specific
travel authorization lists that were prepared from this system. We noted that one of the
problems with these lists is that the Secretarial staff and executive protection personnel
have been exempted from the requirement to provide summary foreign travel authorization
data for inclusion in the Office of International Technology Cooperation’s system. An Office
of International Technology Cooperation official confirmed the Foreign Travel Management
System currently does not apply to the Office of the Secretary of Energy and its support for
foreign trips. We also determined that travel authorization lists included travel
authorizations issued to individuals who traveled to the same destinations as the
Secretary, but who were not there as part of the Secretary’s trips. For example, the travel
authorization list for the Costa Rica trip included several individuals who would have gone
to Costa Rica even if the Secretary’s trip had not occurred, and spent less than 50 percent
of their time supporting the Secretary’s activities.

During our review of the travel authorization listing for the Gore-Mbeki trip to South Africa,
we identified three National Renewable Energy Laboratory (NREL) employees and two
NREL subcontractor employees whose stated purpose for travel appeared to be related to
the Gore-Mbeki Binational Commission. We interviewed four of these people and
reviewed their trip-related documents, and confirmed that all of them had provided
preadvance support for the South Africa Gore-Mbeki trip. We also determined that their
services were paid for by DOE. These personnel were not identified by the Department on
any other lists that we reviewed for this trip. While the travel authorization lists presented
problems in identifying trip participants, in this case, the travel authorization list for the
South Africa Gore-Mbeki trip was beneficial.

                                                45
We were told that the initial travel voucher lists provided to us might be incomplete
because some trip participants had a first destination point different from the scheduled
destinations for a particular trip. Since the traveler’s first destination is the only destination
entered into the travel voucher data base, the query based on the scheduled travel
destinations, therefore, failed to include some trip participants whose first stop was
elsewhere. For example, during the review of the list for the South African trade mission,
we noted that some security personnel were not listed. Upon further review, it was
determined that these personnel made an intermediate stop in London, England. London
was shown as the first destination on their travel authorizations, even though their final
destination was one of the South African destinations. Since their South African
destinations were not entered into the computer data base, they did not initially show up on
the travel voucher list for this trip.

We reviewed trip participant lists that DOE had previously provided to the House
Subcommittee on Oversight and Investigations, Committee on Commerce, and
determined through review of travel voucher listings and interviews of participants that
these lists were not comprehensive. For example, an NREL support services contractor
told us that he traveled on behalf of DOE to selected destinations on the trade mission trips
to India, China, and South Africa. However, the DOE lists prepared for the Subcommittee
did not list this contractor employee for the China trip. Although the NREL subcontractor
had a travel authorization processed by the Office of International Technology
Cooperation’s foreign travel information system for the India destination on the China trip,
the stated purpose was written in a way that did not allow us to identify his participation on
this Secretarial trip.

Management Comments. Management stated that “the final list submitted to the Inspector
General by the Trip Coordinator accurately reflects the members of the Official Delegation.”

Inspector Comments. The Trip Coordinator subsequently told us the “final list” was the list
of trip participants provided to the Chairman of the Oversight and Investigations
Subcommittee, House Committee on Commerce, on January 19, 1996. She also said that
the list did not represent the “official delegation” but actually represented the “trip
participants.”

The basic point we were addressing in our Initial Draft Report was that when we had begun
our review in December 1995 the Department could not provide us with an accurate list of
who had participated in the foreign trips the Secretary had taken. The list provided to the
Subcommittee over a month later was, we understand, the result of a considerable amount
of effort by the Trip Coordinator and other staff.

Based on the Department’s comment, however, we did a comparative analysis between
the “final list” provided by DOE and our list of participants. We found:



                                                46
•   three DOE Federal employees on the “final list“ did not go on trips with the Secretary as
    indicated on the “final list.”

•   21 DOE Federal employees who went on trips with the Secretary were not on the “final
    list” for the trips. In discussing our results with the Trip Coordinator, we found that
    subsequent to providing the “final list” to the Subcommittee she had handwritten the
    names of 15 additional DOE Federal employees to the “final list.” These names were
    included in the 21 DOE Federal employees we had identified.

•   two DOE Federal employees on the “final list” were not included on our list because,
    although they were at the locations for the indicated trips, they did not meet our criteria
    for inclusion as a participant because they traveled for other reasons and spent less
    than 50 percent of their time supporting the Secretary’s mission.

•   two DOE Federal employees and one contractor employee on the “final list” were not
    on our list. We reinterviewed these individuals and determined that they did go on the
    trips indicated on the “final list.” We have, therefore, added these individuals to our list.

•   There are a number of contractor personnel who went on various trips to directly
    support the Secretary’s foreign trips who are on our list but do not appear on the DOE
    “final list.”

This analysis is evidence that the Department’s “final list” was not accurate and we
reemphasize that our basic point is that in December 1995 when we began this review the
Department could not provide an accurate list of participants.

    3. Selection of Non-Federal Participants

The term “non-Federal participant” includes non-Federal invitational travelers,
representatives of private business, and employees of non-governmental organizations
who were invited to participate as business delegates on the trade missions. Examples of
non-governmental organizations who have had employees participate in trade missions
include representatives from public interest groups, colleges, and universities.

In the Secretary’s Insight article referenced earlier, she wrote that DOE’s trade missions
were an “alliance with American business and international partners.” According to the
Secretary, Secretarial-led trade missions “brought leading U.S. business, financial and
energy-policy experts together with high-level government and private-sector officials of the
various nations to discuss substantive issues and advance concrete opportunities.” In that
regard, we were told by officials involved with non-Federal participant selection that
representatives of U.S. businesses were screened, prioritized, and selected to accompany
the Secretary on the trade missions.

The Selection Process


                                                47
The methods used by DOE to identify non-Federal participants have been generally the
same for each of the four trade missions. We were told that employees from various
program offices within the Department were involved with identifying potential non-Federal
candidates for each trade mission. This identification was accomplished through what was
described to us as an “outreach” effort. We were told that DOE’s outreach efforts included:
(1) DOE’s program offices contacting their program stakeholders to determine level of
interest; (2) DOE personnel mentioning trade missions during speeches; (3) DOE
contacting the business councils of the mission countries for business recommendations;
and (4) DOE contacting business trade associations for nominations of association
members.

As a result of the outreach effort, nominations of non-Federal candidates were placed on
an initial candidate list, or “matrix,” by a trip planning team. These non-Federal participants
included both business candidates and non-governmental organization candidates. As
mentioned earlier, the trip planning teams consisted of approximately 30 to 40
representatives from various Department offices who met weekly to bi-weekly during the
months immediately preceding a trade mission to discuss trip details. We were told that,
through use of selection criteria, the initial non-Federal candidate lists were screened,
prioritized, and the individuals were placed on revised shorter lists by a smaller group of
senior trip planners who then presented the revised lists to the Secretary for approval.
These revised lists usually categorized the non-Federal candidates by “PODs.”

       Selection Criteria

DOE officials reported to us that the Department had established selection criteria for use
in screening non-Federal candidates for the trade missions. The Department was unable
to provide us with written criteria that was prepared before the first trade mission to India.
An official in DOE’s former Office of Energy Exports told us she was the person originally
tasked with developing the criteria for the India trade mission. The policy official said she
began by writing down what seemed to be a “logical” starting point for the criteria, such as
“did the company have any business deals in India,” and “did the company have
technologies applicable to India.” The policy official said that after she wrote down the
“logical” statements, the criteria were revised through brainstorming with the India trip
planning team, to arrive at the final criteria. The policy official was unable to provide
documentation that written criteria for India existed prior to the mission. A former senior
advisor to the Secretary, who was involved with all four trade missions, told us that
selection criteria were not developed until after the first trade mission. According to the
Trip Coordinator, although she was not involved with trip planning for the first trade mission,
she prepared written criteria in response to recent Congressional inquiries, based on her
understanding of what the India criteria had been.

For the trade missions after India, we were told the criteria were based upon issues unique
to the business and energy needs of the respective countries. In the written criteria we
were provided for the mission to Pakistan, the criteria for “Industrial Participation,” in
keeping with the mission’s theme of energy investment, included criteria for the inclusion of

                                              48
utility companies and financial institutions. For example, the utility company selection
criteria we were provided for Pakistan were:

       - “utility companies that can assist Pakistan in developing strategies to meet future
         power demand. (There may be international utilities which are members of
         Edison Electric Institute and, as such, may already have ‘interests’ in Pakistan.)”

In addition, the financial institution selection criteria we were provided for Pakistan were:

       - “financial institutions which may have some type of agreements or deals with
         businesses already involved in ‘energy development’ in Pakistan. (This is one
         way of overcoming obstacles to make money available.)”

The criteria for China provided for inclusion of “companies without established business
contacts in China.” For South Africa, we were told by a DOE official that training and
educational needs were a key point considered by trade mission planners. As such, we
were told that a new heading, titled, “Capacity Building/Training & Education,” was
included as a selection criterion for this mission. We were provided with written criteria,
that had “bullets” under this new heading that read: (1) “interest in partnering with South
African businesses (majority and minority),” and (2) “focus on training, education and
capacity building within their long term company plans.”

Selection Criteria Were Not Always Used

On August 4, 1995, the Chairman, Subcommittee on Energy and Environment, House
Committee on Science, in a letter to the Secretary of Energy, requested that the Secretary
provide the Chairman with documents related to trade missions that had been led by the
Secretary since January 20, 1993. Documents requested in the Chairman’s August 4,
1995, letter included a list identifying all persons who were involved in selection of non-
Federal participants for the trade missions, and also a list of the selection criteria used by
those persons. On January 11, 1996, the Chairman, Subcommittee on Oversight and
Investigations, House Committee on Commerce, in a letter to the Secretary, also asked for
information about how non-Federal participants were selected for the trade missions,
including what criteria were used to determine who was invited. The same response was
provided by DOE to both requests. The response consisted of a list of 28 persons
involved in non-Federal participant selection, and also written selection criteria for each of
the four trade missions. As stated previously, we found, however, that the selection criteria
that were provided to the Committees for the India trade mission were not in writing before
the trip.

We interviewed 26 of the 28 people who had been identified by DOE in the response to
the above Congressional requests. These officials included senior DOE representatives
from the Office of the Secretary, Office of General Counsel, Office of Energy Exports,
Office of Fossil Energy, and field locations.


                                               49
Seven of those that we interviewed told us that they had not been involved with the
selection of non-Federal participants for the trade missions. Of the remaining 19 who said
they were involved, 12 who were involved in trade missions which had written selection
criteria prepared before the trip told us that they had not seen written criteria for non-
Federal participant selection. We asked these people what criteria they had used in
making selection decisions. The two major criteria most often referred to were diversity
status and whether a non-Federal candidate had reported having a deal to sign during the
trade mission. The Department defined diversity as size of company, characteristics of
potential delegate, and energy sector representation.

None of the DOE officials that we interviewed regarding the selection of non-Federal
participants told us that there was any discussion of candidates’ political affiliation or
political contribution status during the selection process.

We were told by key officials involved with the selection of non-Federal participants that the
Secretary placed emphasis on the diversity status of non-Federal participants in trade
missions. One DOE program office official who was involved with non-Federal participant
selection, and who did not see any written criteria, told us that the only guidance she ever
received from the Secretary was to make the business delegation “look like society.”
Another DOE official involved with non-Federal participant selection, who did not see any
criteria, told us that when she selected non-Federal participants, she selected “minorities
and environmental energy companies” to be non-Federal participants.

According to key planners, the Secretary sent her senior trip planners “back to the drawing
board” several times after she reviewed lists of proposed non-Federal participants, due to
her displeasure with the diversity mix. The Secretary told us that when she saw the
proposed list of non-Federal participants for the India trade mission, she noticed that the
list contained no women, minorities, non-governmental organizations, or independent
power producers. The Secretary told us that, while she does not recall ever asking her staff
to include any particular person or business on any trade mission, she did tell her India
mission trip planners that she needed “diversity” in the delegation of non-Federal
participants.

We were also told by a former DOE official who worked with the Secretary that the
Secretary places much emphasis on “deliverables,” and that, as a result, during the
selection of non-Federal trade mission participants, emphasis was placed on whether a
potential candidate reported having business deals to sign during the mission. A DOE
national laboratory official, who was involved with non-Federal participant selection and
who did not see any written criteria, told us that it was known the main deciding factors in
selection were “deals and minority status.” We asked the former senior advisor to the
Secretary, who told us criteria were developed after India, what the selection criteria were
for the three subsequent missions. The advisor explained that the criteria for selecting
businesses for the last three trade missions were: (1) top priority was assigned to
businesses already actively established in the host country; (2) second priority went to
businesses with an on-going deal; (3) third priority went to diversification, which he said

                                               50
meant whether the business had expertise in the mission’s theme area, whether the
business was large with bigger businesses receiving higher priority, and, that this priority
also considered the gender/race of the business owner; and, (4) last priority was assigned
to intangible benefits, such as whether the potential business delegate represented a
nonprofit environmental organization.

Records provided by the Department indicate that, during the outreach effort, information
was collected by the Department concerning the value of existing and/or potential deals as
reported by trade mission candidates. These records reflect that the deal information
collected by the Department was compiled in various ways during the selection of non-
Federal participants for trade missions. For example, the initial candidate matrix prepared
prior to the India mission contained a “Dollar Value” column for business deal information
that reflects dollar values for 21 companies. One page of this matrix illustrates that one oil
and gas company reported a dollar value of “2,650 million.”

The initial candidate matrix prepared prior to the Pakistan mission also contained a “Dollar
Value” column, which reflected that three companies had reported business-deal dollar
values of “several billion.” An internal Department memorandum prepared during the
screening, prioritization, and revision of candidate lists for the Pakistan mission listed
potential non-Federal candidates. Attached to this memorandum was a note handwritten
by a senior advisor to the Secretary. The handwritten note indicated that a company
should be left on the shorter revised list because: “They have deals.”

Prior to the mission to China, in addition to the initial candidate matrix with its dollar
column, the Department prepared a tentative “Potential Deal/Signings Matrix,” which
reflected one company had reported to DOE that “Dollar values are very sensitive. Total
value of all orders outstanding exceeds $1.2B.” The initial candidate matrix prepared prior
to the mission to South Africa contained columns for “Past Project” and “Current Project”
information. The “Current Project” column indicated one non-Federal candidate had
reported it was “Seeking to develop $500m project . . .” while another company reported
that it “Has extensive ventures.”

One non-Federal participant, a U.S. business executive who was a member of the official
delegation on all four trade missions, provided us with information about why and how he
was selected to be a participant. According to this business executive, “In each instance
[name of his company] was selected to participate in these trade missions because our
company either had a project underway or a proposed project under consideration in the
host country.” Further, the business executive continued that “only those companies with
good probabilities of success were selected to accompany the Secretary.”

Management Comments. Management commented that:

       “This section of the report suggests that business delegates were selected
       based upon whether they had a deal to sign on the trip. It is more accurate to
       say that the selection was based on companies that had deals that could be

                                              51
       furthered by the Secretary’s direct support, rather than deals that would be
       signed anyway, as is implied in that section.”

   RECOMMENDATION 2: We recommend the Secretary establish a nomination process
for non-Federal trade mission participants, which includes public announcements of the
opportunity to be included in any future trade missions.

Management Update on Status of Corrective Actions. Management stated that: “The
Policy office developed a policy, circulated it for concurrence and comment and
implemented on July 31.”.

Inspector Comments. We have been told that the Department plans to incorporate a Policy
office recommendation concerning comprehensive public notification/solicitation methods
for trip participants into a supplement to DOE M 551.1-1, “International Trips,” at a future
date. Therefore, this recommendation should remain open until the Policy office
recommendation is incorporated into the existing guidance on notification/ solicitation.

Subsequent Management Comments on the Official Draft Report. Management stated
that:

       “In the Initial Draft Report, you requested that we establish a nomination process for
       non-Federal trade mission participants. We prepared and circulated such a
       nomination process with the Department’s revised travel policy on July 31, 1996.

       “Our subsequent conversations with your staff indicate that you may ask that more
       formal action be taken. We agree to take such action should our continuing
       deliberations with your staff call for that result.”

Inspector Comments. We believe that a formal issuance of the nomination process is
needed. Accordingly, we believe this recommendation should remain open until
procedures are issued.



    RECOMMENDATION 3: We recommend the Assistant Secretary for Policy establish
written selection criteria for non-Federal participants on future trade missions and that such
criteria be applied in the selection process.

Management Update on Status of Corrective Actions. Management stated that:
“Consistent with DOE P 551.1 and DOE M 551.1-1 the Policy Office developed and
implemented ‘standard’ selection criteria.” In addition, for those trade missions covered by
the new Department Travel Regulations, the Senior Trip Official will be responsible for
developing mission specific selection criteria for selecting non-Federal participants in
Department-sponsored trade missions.


                                              52
Inspector Comments. We consider management’s actions to be responsive; therefore,
this recommendation may be closed.

Invitation Letters

We were told that after the screening and selection process was completed for each trade
mission, non-Federal trade mission candidates who were selected for the official
delegation were sent letters by the Secretary inviting them to participate. These invitation
letters served as the recipient’s official invitation to join the delegation. As such, the letters
served as an important control feature to prevent any misunderstandings, regarding official
delegate status, between potential non-Federal participants and the Department.

All Secretarial correspondence is supposed to be processed and tracked by the Office of
the Executive Secretariat. The Director, Office of the Executive Secretariat, told us that the
Office is the repository for the official record of all correspondence signed by the Secretary.
The Director also told us that, by definition, the Office of the Executive Secretariat should
maintain a copy of all trade mission invitation letters. However, the Office was not
maintaining copies of all trade mission invitation letters. For example, according to
Executive Secretariat records, the Office at one time had copies of the Secretarial
invitation letters for non-Federal participants on the Pakistan mission. However, during our
inspection, copies of only three Secretarial invitation letters sent to non-Federal
participants for the Pakistan trade mission could be located by the Office.

We found that records pertaining to non-Federal invitees for trade missions were
decentralized. The Director told us that the Office of the Executive Secretariat had not
been provided with copies of all the Secretary’s invitation letters for the India, China, and
South Africa trade missions because some copies were being maintained by the Trip
Coordinator.

However, the Trip Coordinator told us that not all last-minute non-Federal participant
additions to the trade missions, and other official delegates who met DOE in-country, were
sent Secretarial invitation letters. For the mission to Pakistan, we were told the chief
executive of a business was added to the official delegation as a business delegate on the
day of departure and was not provided a Secretarial invitation letter. The Trip Coordinator
told us that the business executive was sent facsimile information about the cost of charter
aircraft transportation to Pakistan, but that there was not enough time to obtain the
Secretary’s signature on an invitation letter.

The Trip Coordinator told us, for each trade mission, some non-Federal participants who
were selected for the official delegation were already located in the trade mission country
and some of these in-country delegates would not have been provided with Secretarial
invitation letters. For example, in the case of China, we were told that Secretarial invitation
letters were not prepared for seven non-Federal official delegation participants because
they were already in-country.


                                                53
  RECOMMENDATION 4: We recommend the Assistant Secretary for Human
Resources and Administration implement procedures to ensure that all non-Federal
participants on future trade missions are provided with the appropriate official invitations in
advance, and that copies of all correspondence pertaining to trade missions are
maintained.

Management Update on Status of Corrective Actions. Management stated that the Office
of Executive Secretariat has issued a memorandum “reminding all of correspondence
policy” and has conducted training and streamlined their archiving processes. Also, the
update stated that the Office of Scheduling and Logistics staff have received training to
ensure that correspondence is handled correctly.

Inspector Comments. We consider management’s actions to be responsive; therefore,
this recommendation may be closed.

Non-Federal Participants Selected Immediately Before Trade Mission Departure

There was a limited number of seats available on the Secretary’s aircraft for non-Federal
participants from each POD. We were told by the Trip Coordinator that the lists, which
categorized potential non-Federal candidates by POD, usually contained more potential
candidates than the typical 5 to 10 seats per POD available on the Secretary’s aircraft.
The seats available for each POD were assigned to potential POD members based on
their priority on the revised lists. Since the remaining candidates on the revised lists had
been through the screening and prioritizing process, these candidates, if interested, would
usually be sent a Secretarial invitation letter and could join the official delegation, in-
country, by providing their own commercial airline transportation.

The Trip Coordinator told us that potential POD members who had been through screening
and wanted to accompany the Secretary on her aircraft, but for whom a seat was not
available, comprised a “waiting list.” The Trip Coordinator told us that she generally used
the waiting list to look for replacements when a non-Federal participant “dropped out” of
the official delegation traveling on the Secretary’s plane at the “last minute.” The Trip
Coordinator said that for each trade mission there were, besides the waiting list, about a
half-dozen business representatives who, although they had not been through the
Department’s screening and prioritization process, were nonetheless interested in being
non-Federal participants in the mission’s official delegation.

During our analysis of the selection of non-Federal participants, several issues related to
the last-minute selection of POD members became evident. In one case, a traveler to
Pakistan was selected for the official delegation by the Trip Coordinator rather than by the
Secretary. This traveler was not selected from the waiting list, was not informed in writing
of the cost of the chartered aircraft transportation, and has not paid for the plane flight.
Further, during the week before the South Africa trade mission, while DOE faced possible
cancellation of the trip because of an insufficient number of paying non-Government


                                              54
passengers, DOE added additional Government-paid passengers to the trip. These
issues are discussed below, beginning with the September 1994 mission to Pakistan.

       Pakistan

We were told by the Trip Coordinator that, as the departure date for the trade mission to
Pakistan neared, some business representatives who were not on the waiting list
expressed interest in the trip. The chief executive officer (CEO) of a technology firm was
one of the business representatives who had not been through a selection process but was
interested in becoming an official delegate. This CEO was planning to travel to Pakistan
on his own, via commercial aircraft, and participate in the public events that coincided with
the Secretary’s mission. When a non-Federal participant dropped out of the Pakistan
mission “at the last minute,” the Trip Coordinator, who knew that the technology firm’s CEO
was interested in the trip, contacted the firm at midday on the day of the mission’s
departure about the CEO’s possible participation. The CEO was departing his office to
catch a commercial flight from a North Carolina airport when she told one of his employees
that, if he could get to Dulles International Airport in Northern Virginia by 10:00 p.m., then he
could fly on the Secretary’s aircraft as a business delegate of the official delegation.

The Trip Coordinator told us that the technology firm was contacted regarding the CEO’s
participation in the mission rather than candidates from the trip’s “waiting list,” because the
CEO was the “most able” to get to the Secretary’s aircraft by the departure time. She said
the CEO was leaving for the airport anyway, could easily divert to Dulles, and she believed
those on the waiting list had either already left on their own for Pakistan or would find the
available notice too short. Although there is no documentation, the Trip Coordinator said
she sent facsimile information on the day of departure to one of the firm’s managers that
explained the cost of charter aircraft transportation for the CEO. She also said there was
not enough time to obtain senior Secretarial staff or the Secretary’s approval for the CEO’s
addition to the official delegation, and therefore, no invitation letter was transmitted along
with the facsimile explaining the cost of the charter aircraft transportation.

DOE records reflect that the technology firm was billed $6,577 for the cost of the CEO’s
charter aircraft transportation to Pakistan. During our inspection fieldwork, the total
balance remained outstanding. The CEO told us he was surprised to receive a bill from
DOE following the mission because he was never informed that he would be required to
pay for transportation other than from his office location to Dulles International Airport. The
CEO also told us he considered his reimbursement to be an open issue. We were
informed by the Department, however, that on June 10, 1996, after the issuance of our
Initial Draft Report, the technology firm began a payment plan by paying one-third of the
total outstanding balance.

       South Africa

The trade mission to South Africa departed from Dulles International Airport for Cape Town
on August 18, 1995. The delegation traveled on a DC-8 aircraft operated by Champion

                                               55
Air, a private carrier. Charter arrangements for this aircraft were made by the Department
through Flight Time International, a charter agent. A more detailed discussion of charter
aircraft acquisition will follow in Section E, “Aircraft Acquisition,” of this report.

According to a logistical guide sent with DOE’s Secretarial invitation letters to non-Federal
participants in late July 1995, DOE had instructed non-Federal participants to forward their
payment for the charter flight directly to Flight Time by August 4, 1995. However, we found
that no formal agreement existed between Flight Time and DOE regarding the aircraft
charter until August 10, 1995.

On August 10, 1995, DOE and Flight Time reached an agreement on the terms of the
charter and the cancellation policy by using a Government Transportation Request (GTR)
with appendix. This agreement shows that non-Federal participants (other than invitational
travelers) were to make payment for the chartered-aircraft transportation directly to Flight
Time. However, to ensure that Flight Time realized the full price of the charter, DOE
agreed to fill any empty seats on the charter with paying passengers “off its delegation
waiting list.” Also, according to the agreement, if sufficient paying passengers were not
committed for the flight during the final week before departure, Flight Time had the right to
cancel the charter. Along with a cancellation penalty assessed against DOE of over
$150,000 by Flight Time, the late cancellation of the charter aircraft would most likely have
resulted in the late cancellation of the trade mission. Specifically, the August 10, 1995,
charter agreement stipulated that:

       “The vendor shall have the right of cancellation: as of close of business on
       August 14, 1995, if the vendor has not received 90% of the total charter fee
       (Government and non-Government); as of close of business on August 16,
       1995; if the vendor has not received 95% of the total charter fee (Government
       and non-Government); and as of the scheduled take-off time on August 18,
       1995, if the vendor has not received 100% of the total charter fee
       (Government and non-Government).”

Four days before departure there were 16 or 17 unpaid seats on the aircraft. This
information was based on interviews by United States General Accounting Office (GAO)
staff of both DOE and Flight Time officials as events were occurring. According to GAO’s
information, a Flight Time official stated on August 14, 1995, that, due to a shortfall in
excess of $100,000 under what was required to have been received by the established
due date, Flight Time was reevaluating the charter agreement pending cancellation
discussions with DOE. On August 15, 1995, GAO’s information showed that a DOE
official assured Flight Time the charter flight would be paid in full before takeoff. The GAO
information further showed that two days prior to departure, on August 16, 1995, the
shortfall remained in excess of $100,000 under the amount required to have been received
by the established due date. However, by three hours before takeoff, GAO’s information
showed the shortfall had narrowed to about $16,000.



                                             56
During our inspection, we identified and interviewed participants in the South Africa trade
mission who were added during the final days before the mission’s departure and also
were provided Government-arranged air transportation. The information provided to us by
these trade mission participants was consistent with the GAO information. Information
provided by these trade mission participants is discussed below.

We interviewed a DOE contractor employee who traveled on the South Africa trade
mission on Government-arranged air transportation. This traveler told us that she was not
scheduled to go to South Africa until about 48 hours prior to departure. The contractor said
that she did not know why she was given such short notice for this major overseas trip.

We also interviewed an official of a state utility board who traveled on the South Africa
trade mission on Government-arranged air transportation as an invitational traveler. This
official told us he was first contacted about being a participant only about 10 days prior to
departure. Also, the official said that he did not commit to be a participant on the trade
mission until three or four days prior to the mission’s departure. Further, the official said he
was not certain exactly why DOE selected him as a participant in the trade mission.

The original August 10, 1995, GTR discussed earlier in this section specified that 21
Government-paid passengers would be on the charter flight. Following the trip, on
September 15, 1995, DOE modified the original GTR to cover the transportation expenses
of five additional passengers. This modification raised the number of Government-paid
passengers to 26. Therefore, the number of actual Government-paid passengers
increased between the time of DOE’s original agreement with the charter agent on August
10, 1995, and the date of departure on August 18, 1995. Based on Departmental records,
we were unable to specifically determine which of the travelers were added by the modified
GTR.

In addition to the above travelers paid for by the Department, we also identified three
business delegates whose travel to South Africa was not paid by DOE who were invited to
participate in the South Africa trade mission during the final days before the mission’s
departure. The travelers were (1) a senior vice president with a small Michigan energy
firm; (2) a pension fund specialist from a Louisiana based pension fund consulting firm;
and (3) a board member of the United States Enrichment Corporation (USEC). The
following is a discussion of the addition of these travelers.

The Michigan energy firm’s senior vice president had participated in both the India and
South Africa missions. On June 12, 1996, the senior vice president testified during a
hearing before the Subcommittee on Oversight and Investigations, House Committee on
Commerce, concerning DOE travel issues. During the question and answer portion of the
hearing, the senior vice president provided information pertaining to her addition to the
South Africa mission. Specifically, the senior vice president stated that she had not
received a Secretarial invitation letter for the South Africa trip, nor had she been invited to
participate in the mission until the last minute.


                                               57
The pension fund specialist participated in the Finance POD on the South Africa Mission
but was not included in either the initial candidate list or shorter revised list mentioned
earlier in this section. Additionally, neither the Office of the Executive Secretariat nor the
Trip Coordinator could provide us with a copy of the Secretarial invitation letter for the
pension fund specialist. The Finance POD leader told us that the pension fund specialist
was not on the potential non-Federal candidate lists because he did not identify the need
for a pension fund specialist in the POD until late in the trip planning process. The Finance
POD leader told us that when he realized the need for pension fund experience on the
mission, he met with the pension fund specialist based upon the recommendation of
another non-Federal candidate.

The Finance POD leader told us the non-Federal candidate who recommended the
pension fund specialist also attended the meeting, as did a senior advisor to the Secretary.
He told us that following the meeting he personally decided that the pension fund specialist
should be added to the trade mission, and recommended this to the Secretary’s senior
advisor. Further, the Finance POD leader told the pension fund specialist that, based on
space availability, a Secretarial invitation might be forthcoming. The POD leader told us
that a week prior to departure, because space had become available, the Secretary’s
Office informed him that the pension fund specialist could be a non-Federal participant and
fly on the chartered aircraft with the Secretary. The Finance POD leader did not know why,
as late as one week from departure, additional space had become available.

The board member of USEC, a Texas medical doctor, participated in the Oil and Gas
POD on the South Africa mission. The board member told us that USEC paid for his air
transportation, including the chartered aircraft and connecting commercial flights between
Texas and Washington, D.C., and also reimbursed him for related travel expenses. The Oil
and Gas POD was led by the then Deputy Assistant Secretary for Gas and Petroleum
Technologies, who has since left the Department. The Oil and Gas POD leader told us that
he knew the board member through contacts in the oil and gas industry, and that the board
member was selected for the Oil and Gas POD due to his entrepreneurial interest in the
Texas energy business.

Our analysis of an initial candidate list for South Africa prepared May 2, 1995, from the
outreach effort of the Office of Fossil Energy, found no mention of the board member.
Further, the board member was not on a June 16, 1995, list that contained the non-Federal
participant candidates identified by all Department offices involved with the outreach effort.

A DOE official provided us with a July 12, 1995, revised list that had been developed by a
smaller group of Department employees for approval by the Secretary. We found that the
board member was not included on this July 12, 1995, revised list. However, we were also
provided with other revised lists of potential non-Federal participants, which did include the
board member. One such revised list, also dated July 12, 1995, included the board
member in the “Capacity Building” POD and had a handwritten question mark beside the
board member’s name. A July 13, 1995, revised list did not include the board member in
any POD. Another undated, revised, potential non-Federal candidate list assigned the

                                              58
board member to the Capacity Building POD, and contained handwritten notations both
deleting the board member from the trip and “Fold[ing] back in” the board member. The
Trip Coordinator told us they were her handwritten notations, but she also told us that she
could not recall who told her to delete and add back the board member, or why.

The Oil and Gas POD leader told us that the board member contacted him “months” prior
to the South Africa mission and expressed interest in participating, and also in
accompanying the Secretary on her chartered aircraft. Based on the board member’s
inquiry, the POD leader said he unilaterally made the decision to include the board
member in the POD as an official delegate. However, according to the POD leader, the
Oil and Gas POD was already full and there were no more seats available for Oil and Gas
POD members on the chartered aircraft. At that point, the POD leader said that the board
member made plans to take a commercial flight to South Africa and meet the other trade
mission participants. The POD leader also told us that while some small businesses were
concerned about the cost of the charter flight, the board member wanted to be on the
chartered aircraft regardless of the cost involved.

The Oil and Gas POD leader told us he received word that space had become available
on the chartered aircraft for the board member about two days before the mission to South
Africa departed. An employee on the POD leader’s staff, who relayed this word to the
POD leader, confirmed that the Trip Coordinator had called him with the news about the
seat for the board member. Neither the POD leader, nor his employee, could tell us why
space had become available for the board member. When we discussed this with the Trip
Coordinator, we were told that the she had added the board member to the Secretary’s
aircraft during the “chaos” of the last few days before the trade mission. At that time, the
Trip Coordinator said she called the above mentioned employee of the POD leader
because space had become available on the chartered aircraft, but she no longer recalled
how or why the opening occurred.

We asked the Trip Coordinator whether any Departmental policy or procedure dictated
who she called, and in what order, to fill such openings. The Trip Coordinator told us that,
while she was not required by policy or procedure, she attempted to look for replacements
from the same POD section on the waiting list. However, in the case of the board member,
the Trip Coordinator told us that a certain amount of “chance” was involved, because she
happened to call the Oil and Gas POD leader’s employee first about the South Africa
opening and the employee suggested the board member.

Management Comments. Management commented that the Department had to turn away
businesses that wanted to travel as part of the official delegation to South Africa.

Inspector Comments. We identified travelers who went to South Africa who did not know
well in advance that they were being considered for participation in the trip.

  4. Invitational Travel


                                             59
Under Title 5 U.S.C. Chapter 57, "Travel, Transportation and Subsistence," a private
individual is allowed to be invited by a Federal agency to a meeting or conference, at
Government expense, if that individual is performing a direct service for the Government
such as making a presentation, or advising in an area of expertise. Under this
arrangement, the Federal agency may pay transportation, lodging, subsistence, or other
travel expenses.

Using this authority the Department invited a number of individuals to accompany the
Secretary on the four trade missions. Based on information and documentation provided
by Department officials, it appears that on as many as 27 occasions, invitational travel was
extended to non-Federal employees and contractor personnel to participate in the four
trade missions. This number is based on (1) a listing of 22 travelers initially provided to us
by the Department; (2) an April 8, 1996, Office of General Counsel listing of invitational
travelers prepared in response to a Congressional request, which identified one instance
in which invitational travel was extended to a contractor; and, (3) travel
authorizations/vouchers and other correspondence provided by program offices, which
identified four invitational travelers, three of whom were contractors. Table 9 shows the
sources used to determine the number of invitational travelers on the four trade missions.




                                              60
                                  TABLE 9
                           IDENTIFICATION OF THE
                         INVITATIONAL TRAVELERS
                       FOR THE FOUR TRADE MISSIONS
                                             Initial      OGC        Program
               Country/Destination            List        List         Data          Total

                         India                 4             0            0            4

                   Austria/Pakistan            6             0            3            9

               India/Hong Kong/China           6             1            0            7

                     South Africa              6             0            1            7

                                    Total      22           1*            4           27**


               *The OGC list incorrectly indicated that in five instances invitational travel
               had been provided to Federal employees. Because Federal employees
               may not travel under invitational travel procedures, we did not include these
               instances in our list of invitational travelers.
               **All travelers went to the indicated trade mission country.




Management Comments. Management commented that the Department agreed that
invitational travel did not apply to Federal employees. The Department advised us,
however, that the procedures for travel of Federal employees who travel at Department
expense are the same as for invitational travelers, “with the only difference being that they
are not called invitational.” With regard to the one Federal traveler referenced in the
Department’s comments, an Energy Research (ER) official advised that although this
traveler’s name had been included in error in an invitational travel memorandum to the
Secretary, this individual’s travel orders were issued correctly as standard Government
travel authorizations and were properly approved and signed by ER officials.

Inspector Comments. After considering these comments, we concluded the Department
incorrectly designated other Federal employees as invitational, but otherwise processed
the travel correctly for those individuals. We therefore excluded these other Federal
employees from our list of invitational travelers.

Title 10, Code of Federal Regulations Part 1060, "Payment of Travel Expenses of Persons
Who Are Not Government Employees," (10 C.F.R. 1060) governs invitational travel within
DOE. The regulation provides that payment may not be authorized or approved for

                                                    61
transportation, lodging, subsistence, or other travel expenses from DOE funds to, or on
behalf of, a person who is not a Government employee unless such payment is made
pursuant to an invitation to confer with a DOE employee on matters that are essential to the
advancement of DOE programs or objectives. In the case of a person invited to confer at
the post of duty of the conferring DOE employee, a designated official must approve and
must state the reasons for the invitation in writing. In instances where individuals are
invited to confer at a place other than the post of duty of the inviting official, the approval
and statement of reasons must be made in writing by a principal Department official. This
official is defined as either the Secretary, Deputy Secretary, or Under Secretary of Energy.
The authority of the designated official or a principal Department officer to provide
approval of an invitation to travel may not be delegated.

Title 10, C.F.R. Part 1060 also allows payment of travel expenses of contractor personnel
provided the expenses are incurred with respect to matters outside the scope of the
contract. However, 10 C.F.R. 1060 specifically states that its provisions are not
applicable to the authorization or approval of payment of travel expenses of Government
employees, including DOE employees.

The purpose for the OIG's review of invitational travel for the trade missions was to
determine whether those persons extended invitational travel were eligible for such travel
and whether the travel was properly approved. Based on this review, we found that (1)
invitational travel may have been inappropriately extended to 5 travelers and (2) prior
written approval and justification had not been prepared by a principal Department official
in 19 of the 27 instances in which invitational travel was provided. Further, the review
disclosed that invitational travel policy was not fully understood by Department officials. It is
likely that this lack of understanding of the policy caused the deficiencies identified during
the review.

Inappropriate Invitational Travel Process

During the review, we identified five travelers to whom invitational travel may have been
inappropriately extended. In the majority of these instances, invitational travel had been
extended to contractor personnel. Although it may have been appropriate to include these
persons on the trade missions, invitational travel was not the appropriate mechanism for
paying their travel costs. Following is a discussion of each of those instances that is based
on information provided by cognizant Departmental officials and our review of relevant
Department documents.

Traveler 1: Initially the Department arranged for this non-Government business delegate to
fly round-trip to Pakistan on the charter flight. However, officials advised that after arriving
in Washington, D.C., this traveler inadvertently left his briefcase in a taxi and was unable to
fly on the charter flight. In order for the Department to acquire a one-way commercial airline
ticket for this traveler, he was improperly classified as an invitational traveler. However,
according to a Department official, this traveler was expected to reimburse the Department
$2,123, the cost of the commercial airline ticket, as well as $6,477, the cost of the seat

                                               62
reserved for him on the charter flight. Despite expecting reimbursement from this traveler,
more than 19 months after the Pakistan trade mission, this individual had not reimbursed
the Department for the commercial ticket, nor had the Department billed the traveler for the
$2,123. The Department, however, had billed this traveler $6,477, the cost of the charter
flight seat, and $100 in administrative fees associated with the trip. As of April 26, 1996,
this bill had not been paid.

Traveler 2: A management and operating contractor employee from the Lawrence
Berkeley Lab, considered an expert in the field of electricity management, was invited to
travel to Pakistan and provide services related to his field of knowledge. This individual’s
travel was not approved in advance by a principal Department official nor was justification
provided. However, in an October 25, 1994, memorandum a Department official
requested program office officials “complete the travel authorizations for certain individuals
extended invitational travel by the Department.” This traveler was listed as one of the
invitational travelers for whom a travel authorization was needed. During the Pakistan
mission, the Department arranged for this individual to fly on the charter flight and arranged
for hotel accommodations to be paid by the U.S. Embassy. This traveler advised that the
labor costs for services provided to the Department while in Pakistan were charged to the
Department's contract with the laboratory. However, 10 C.F.R. 1060 states that payment of
travel expenses of contractor personnel are allowed provided the expenses are incurred
with respect to matters outside the scope of their contract. According to a Department
official, this invitational travel arrangement was inappropriate and all labor and travel costs
should have been paid through the laboratory's contract.

Traveler 3: DOE invited this subcontractor to provide expert technical assistance and
advice related to oil and gas matters during the Pakistan trade mission. A subcontract
was awarded for this service. Additionally, the Department arranged and paid for this
traveler’s round-trip air travel to Pakistan on the charter flight. The Department also
arranged for hotel accommodations to be paid by the U.S. Embassy. However, the invoice
submitted by this subcontractor to the prime contractor subsequent to the mission showed
that the subcontractor's labor costs during the trip were charged to the subcontract. Based
on 10 C.F.R. 1060, this arrangement was inappropriate, and as stated above, all labor and
travel expenses due contractors should be paid through the contracts. In this case, the
Department may have paid lodging costs for this traveler twice. Based on a review of this
traveler's invoice, it appears that hotel costs during the trade mission were charged to the
subcontract even though lodging costs had been paid by the U.S. Embassy. The OIG was
advised that the prime contractor and DOE procurement officials are working to resolve
this matter.

Traveler 4: A Deputy Assistant Secretary approved a subcontractor's invitational travel to
China after the subcontractor advised of having been invited on the trip by the Secretary,
but not having money for the travel. The Department arranged to pay this subcontractor’s
travel and hotel costs. Additionally, the Department issued a purchase order and
statement of work for this subcontractor to provide support services in developing and
maintaining technology transfer processes and systems. The deliverable from the China

                                              63
mission was a document entitled: "Identifying Minority Businesses in the Environmental
Field." This traveler was not eligible for invitational traveler under 10 C.F.R. 1060.301
since during the China mission, she was to conduct work required by her subcontract.
According to a Department official, all costs associated with this subcontract should have
been paid through the subcontract.

Traveler 5: An M&O contractor employee from the Pacific Northwest Laboratory (PNL)
was asked to participate in the South Africa trade mission. During the mission, this
contractor employee was to provide substance support. While the Department did not
classify this participant as an invitational traveler, it arranged and paid airfare and hotel
costs for this trip. However, PNL paid this contractor’s salary during the South Africa
mission. According to 10 C.F.R. 1060, these arrangements were improper. The
Department is allowed to pay travel expenses of contractor personnel only if the services
provided by the traveler are outside the scope of the contract. In this case, the contractor’s
travel costs should also have been paid through the contract.

Approval Documentation Lacking

During the review, we were unable to obtain documentation to support that all invitational
travel had been approved in advance by a principal Department official. In 19 of the 27
instances in which invitational travel was provided, we found no evidence of a principal
Department official’s advance approval of the travel. In eight instances, we found a
principal Department official had approved invitational travel. In five of these eight
instances, however, justification consisted of a general statement that "the non-government
personnel will be conferring with Department officials and the Mission Delegation on policy
matters in their areas of expertise throughout the trip and are essential to the advancement
of DOE programs and objectives," In two instances, a principal Department official's
approval had been provided on the travel authorization forms. In these two cases, the
purpose of travel was "for the special Presidential mission on sustainable development,"
with no additional justification provided. In the final instance, a principal Department
official's approval was provided on September 20, 1994; however, the trade mission
began on September 19, 1994. The justification for this travel was "to confer on energy
investment opportunities being arranged between his company and the Pakistan and
United States governments."

Invitational Travel Policy Misunderstood

During the review, we observed that program officials were not fully aware of requirements
related to invitational travel. One program officer believed that all




                                              64
invitational travel, both to DOE sites and non-DOE sites, could be approved at the Deputy
Assistant Secretarial level. Further, some program office officials were unsure of the
documentation needed to support invitational travel and the need to complete vouchers
once travel had been completed.

One official also advised that their office frequently designated contractors as invitational
travelers so that travel arrangements could be made by the Department. However, labor
costs for these contractors were paid through the contracts. This official believed that
contractors' travel expenses were cheaper with this arrangement in that overhead was not
applied to travel costs.

To clarify invitational travel policy, the Office of General Counsel issued to all Secretarial
officers a reminder on the legal review of aircraft use and invitational travel on April 23,
1996. Department officials were reminded of the Department policy concerning approval
of invitational travel and the need to comply with such policy. We believe this is a positive
action. However, we believe that the Department needs to provide training to ensure that
invitational travel requirements are understood and are properly implemented.

   RECOMMENDATION 5: We recommend the General Counsel and the Chief Financial
Officer provide training to those individuals responsible for processing invitational travel.

Management Update on Status of Corrective Actions. Management stated that, in addition
to issuing an April 23, 1996, memorandum to all Secretarial officers concerning the legal
review of aircraft use and invitational travel, the CFO and OGC had developed plans and
materials to conduct training classes. Classes have been scheduled to start in August and
will continue regularly in an effort to keep DOE employees informed of the regulations and
any changes associated with them.

Inspector Comments. We consider management’s actions to be responsive; therefore,
this recommendation may be closed.

   5. Support Personnel

We were told by an official in the Office of Human Resources and Administration (Human
Resources) that following establishment of the Office of the Secretary of Energy in 1977,
Department personnel provided administrative, communications, and security support to
the Secretary of Energy while on foreign travel. He said that although guidelines were
established regarding support for the Secretary’s foreign travel, there were never any
written guidelines concerning the requirement for an advance team to travel in conjunction
with Secretarial foreign travel. We also interviewed a retired Human Resources official
who assisted in establishing the Office of the Secretary. Both officials told us that the
concept of sending an advance team and the composition of the advance team to support
the Secretary’s foreign travel were modeled after the standard advance team for foreign
travel taken by “senior White House officials.” Their understanding was that the standard
advance team was composed of two administrative specialists, two communications

                                              65
specialists, and two security officers, who traveled to each destination on the Secretary’s
itinerary up to five days in advance of the Secretary to prepare for the Secretary’s arrival.
The retired Human Resources official said that for years he had been “bugged” to put
together written guidelines for Secretarial foreign travel. He said, however, that every trip
was different, and it was difficult to establish a written set of procedures. Therefore, he had
not prepared any written guidelines. The current Human Resources official said that “over
the years the advance team support package evolved and was continued without any
written guidelines.”

Management Comments. Management stated that: “It is our understanding that the
advance team was modeled after and is consistent with those for the Secretaries of other
Cabinet level departments.”

Inspector Comments. We have no further comment.

We reviewed the numbers of personnel that participated in the advance teams for the
Secretary’s foreign travel. We found, for example, that 16 security, 12 communications,
and 12 administrative support personnel traveled in advance of the Secretary on the China
trade mission, which included four destinations. We also found seven security, five
communications, and seven administrative support personnel traveled in advance of the
Secretary on the South Africa trade mission, which included three destinations.

According to personnel who have participated on the administrative support team for the
current and former Secretaries’ foreign travel, duties of administrative support personnel
on the advance team in preparation of the Secretary’s arrival at a foreign location included:
(1) making all logistical arrangements for hotels, including conference rooms; (2)
establishing rooms to be used as a communications/security command post and staff
working rooms; (3) arranging ground transportation and translators/interpreters; and (4)
coordinating the trip with the U.S. embassy/consulate staff. We were told that prior to
departure on their advance trips, administrative support personnel ensured completion of
travel authorizations and funding/obligation approval to U.S. embassies/consulates,
arranged for charter aircraft, and shipped equipment in support of the Secretary’s trip.

Personnel who participated in the advance teams for the Secretary’s foreign travel told us
that duties of the communications personnel on the advance team included supporting all
computer equipment, facsimile machines, cellular phones, hand-held radios, and other
equipment used by the advance team and the Secretary’s official delegation. The
communications team, with the assistance of U.S. embassy staff, set up the command post
and staff room(s), and set up and checked out all associated equipment that had been
shipped to the host country. The communications team also ensured that the Secretary
and staff had the capability to have direct contact with the Department. We were told that
prior to the Secretary’s departure for foreign travel, the communications team assembled,
checked-out, packed, and shipped all necessary equipment in support of the Secretary’s
trip. An official from the Office of Information Management (Information Management) also


                                              66
told us that the communications team staffed the command post 24 hours a day “to handle
any situations that may arise.”

Administrative/Communications Support

We found that the Department does not have written criteria for determining the number of
administrative/communications personnel required to support the Secretary’s foreign
travel. We also found that on several occasions the number of
administrative/communications support personnel for the trips was reduced by the
Secretarial staff. According to a Human Resources official, there were never any written
guidelines concerning the requirement for an administrative advance team to travel in
conjunction with Secretarial foreign travel, nor any written guidelines concerning the size of
an administrative advance team. He said that over the years the administrative advance
team “support package” evolved and continued without any written guidelines. He said
factors that affected the size of the advance team included size of the official delegation,
stability of the foreign country, length of stay and number of destinations, and type of
equipment that was needed to support the trip.

In describing the process for finalizing the size of the administrative support team, the
Human Resources official said that he would make a verbal recommendation to his
supervisor regarding who should be part of the administrative advance team. If the
supervisor approved the recommendation, the official said that he would coordinate the
recommendation with individuals on the Secretary’s staff. He said that on several
occasions, the Secretary’s staff reduced the number of individuals recommended for the
administrative advance team. He said that, typically, two staff members were sent to each
location.

According to an Information Management official, although there were no written criteria for
determining the size of the communications support team required for Secretarial travel,
there were considerations that were used to determine the size of the communications
team and the types and amount of support equipment. The size of the team was based on
the size of the Secretary’s official delegation; the level of communications support needed;
the location(s) to be visited; and the amount and type of equipment needed at each
location. An individual from the Secretary’s office who was coordinating a planned trip
would alert him that communications support was needed. Depending on what
communications staff was available, he would make a verbal recommendation to his
supervisor regarding who should be part of the communications team. If the supervisor
approved the recommendation, he passed the recommendation on to the Human
Resources’ Administrative Specialist who was coordinating the administrative support
package for the trip with the Secretary’s staff. Several times the Secretary’s staff reduced
the number of individuals on the communications team. Typically, two staff members were
sent to each location to be visited by the Secretary, with an occasional trainee added to the
team when the communications team deemed it appropriate to train additional personnel
and the workload was expected to be unusually heavy. He said that on recent foreign trips,
contractor support personnel were used to provide communications/computer support.

                                              67
The Information Management official said support equipment configurations evolved over
time and were influenced by prior trip experience, so various configurations were used
from trip-to-trip. He said that currently a basic configuration list is used in planning
equipment needed on specific trips. He said this basic list was established and
implemented in May 1995 based on prior travel experience.

The Information Management official also said that with former Secretaries, his office
would get at least 30-days notification from the Secretary’s office of scheduled foreign
travel. He said that this allowed his office time to pack equipment needed to support the
Secretary and ship it via diplomatic pouch to the U.S. Embassy in the country to be visited.
He said, however, that it was difficult to send equipment via diplomatic pouch to support
the Secretary’s travel because his office sometimes received notification of an upcoming
trip anywhere from one day to a week in advance. This resulted in members of the support
team having to transport equipment as excess baggage aboard the aircraft. Exhibit 2 lists
equipment that was transported to Johannesburg, South Africa. A similar list of equipment
was also transported to Cape Town, South Africa, during this trip. He further said that this
method of shipping equipment was very expensive because, depending on the size of the
delegation to be supported, there could be 15 to 25 crates of equipment, weighing from 60
to 80 pounds each, shipped as excess baggage. This excess baggage would weigh
between 900 to 2,000 pounds.

  RECOMMENDATION 6: We recommend the Assistant Secretary for Human
Resources and Administration evaluate the level of administrative and communications
support required for Secretarial foreign travel.

Management Update on Status of Corrective Actions. Management stated that DOE N
551.1 requires the Senior Responsible Official to develop a logistical staffing plan as part
of each trip plan. It also stated that the Offices of Administrative Services and Information
Management have developed written criteria for use by the Senior Responsible Official in
determining the appropriate number of administrative/ communication personnel.

Inspector Comments. We consider management’s actions to be responsive; therefore,
this recommendation may be closed.




                                              68
EXHIBIT 2




   69
EXHIBIT 2




   70
EXHIBIT 2




   71
EXHIBIT 2




   72
Security/Executive Protection

According to the Office of Security Affairs (OSA) Executive Protection Procedural Guide
(Guide), dated April 1995, “the purpose of the DOE Executive Protection Program is to
provide personal protection to the Secretary and the Deputy Secretary, when designated
by the Secretary.” The Guide states that:

       “. . . the program strives to prevent injury or embarrassment to the protectees
       from acts by terrorists, criminals, violent dissident groups, or unstable/
       irrational individuals. Additionally, executive protection personnel should
       take precautions to reduce the exposure of the Secretary and Deputy
       Secretary to hazardous or life threatening accidents.”

According to an OSA official, in January 1993 OSA issued the Executive Protection
Procedural Guide, which was an attempt to consolidate executive protection procedures
into one document. He said, however, that the Guide was not complete and was only a
“discussion of what needs to be done, not how to do it.” Although a separate order was not
issued for the Executive Protection Program, in February 1995 the Department issued a
revision to DOE Order 5632.7A, “PROTECTIVE FORCE PROGRAM,” which contained
the policy and concept of operations for executive protection of the Secretary and the
Deputy Secretary. The OSA official said that, in April 1995, following issuance of the
executive protection policy in the revised DOE Order, the Executive Protection Procedural
Guide was updated, revised and reissued. He said that written requirements for the
Executive Protection Program are contained in the revised DOE Order. However, he also
said that although the Executive Protection Procedural Guide does not establish
requirements, OSA uses the Guide as “requirements” for the Executive Protection
Program.

The OSA official said that OSA is responsible for managing and directing the Executive
Protection Program and has appointed an Executive Protection Program Manager to plan,
coordinate, and control all executive protective service operations and program activities.
The Executive Protection Program Manager, through his management channels, only
made security recommendations to the Secretary’s office. He said that the Transportation
Safeguards Division (TSD), headquartered in Albuquerque, New Mexico, had employees
in Albuquerque; Amarillo, Texas; and Oak Ridge, Tennessee; who provided executive
protection support. TSD provided personnel for advance teams, protective details, and
other services requested by the Executive Protection Program Manager and appointed an
Executive Protection Coordinator to act as the official point of contact on executive
protection matters.

According to an OSA official, OSA does not have written criteria/procedures for
determining the number of executive protective personnel to support the Secretary while on
foreign travel. He said that security recommendations for Secretarial travel were based on
knowledge of the threats facing the Secretary, “professional training,” and extensive
experience in providing protection services dating back to the first Secretary of Energy.

                                             73
He said that the following factors were considered when determining the number of
executive protective personnel that travel with the advance team, but that the Secretary
made the final decision as to her personal security:

       - A Departmental Threat assessment, which is provided by the Threat Assessment
         Division, Office of Emergency Management, Office of Nonproliferation and
         National Security;

       - Threat information provided by the Department of State’s Regional Security
         Officers located at the U.S. embassies/consulates in the countries to be visited or
         by local police department(s) for domestic trips;

       - The number of stops on the itinerary; and

       - Input from the Secretary and/or her staff.

We were told by an OSA official that for a number of foreign trips taken by the Secretary
the recommended size of the executive protection team was reduced by the Secretary’s
office. The Secretary told us U.S. Embassy and Department of Energy security personnel
handled security for her trips. She also said the Department’s Chief of Staff would
negotiate the size of the security team with the Director of the Office of Nonproliferation and
National Security. The Secretary said that she stayed out of it completely.

As discussed above, threat assessment information played a role in the determination of
the number of security personnel required to accompany the Secretary on foreign travel.
We reviewed the threat assessments considered by OSA in their determination of the
number of executive protection personnel for each of the 16 foreign trips by the Secretary.
We compared the threat assessments with the corresponding numbers of executive
protection personnel that supported the Secretary’s travel on five trips that involved only
one destination. We noted, for example, that for the Secretary’s October 1993 trip to
London, England, the threat was categorized as “negligible/low” and five executive
protection persons supported the Secretary’s trip. For the Secretary’s July 1994 trip to
New Delhi, India, the threat was categorized as “low” and nine executive protection
persons supported the Secretary’s trip. For the Secretary’s trip in August/September 1994
to Brussels, Belgium, the threat was categorized as “low” and four executive protection
persons supported the Secretary’s trip. For the Secretary’s June 1995 trip to San Jose,
Costa Rica, the threat was categorized as “low” and five executive protection persons
supported the Secretary’s trip. For the Secretary’s May 1995 trip to Moscow, Russia, the
threat was categorized as “medium/high” and five executive protection persons supported
the Secretary’s trip.

DOE Order 5632.7A states that normally, proposed executive protection requirements will
be submitted in writing to the Executive Protection Program Manager, who will then forward
recommendations to the Secretary or the Secretary’s designated representative for
approval. The Order, however, does not identify who is responsible for preparation and

                                              74
submission of the proposal to the Executive Protection Program Manager. Specifically,
Chapter VIII, paragraph 3, Concept of Operations, states that:

       “Executive protection will not be provided to the Secretary without the
       knowledge and specific approval of the Secretary . . . . Normally, proposed
       executive protection requirements will be submitted in writing to the
       Executive Protection Program Manager at least 10 working days prior to
       implementation of a service. On those occasions when there is less than 10
       working days notice of impending travel by the Secretary or Deputy
       Secretary, executive protection requirements will be submitted as soon as
       possible. The proposal shall include:

       “(1) A description of known or potential threats.

       “(2) The nature, extent, and duration of proposed executive protection
            activities to be conducted.”

The Order also states that: “The Executive Protection Program Manager will forward
recommendations to the Secretary, or the Secretary’s designated representative, for
approval.”

When we discussed this requirement with an OSA official, we were told that the intention
was for the Secretary’s office to provide OSA with detailed information for each trip
proposed by the Secretary so that executive protection requirements could be identified.
The OSA official said that it has been difficult, however, to obtain this information from the
Secretary’s staff prior to her travel and, therefore, this part of the requirement has not been
followed. Another OSA official told us that he used the Secretary’s schedule to determine
her protection requirements while on travel. He said every two weeks OSA receives a
copy of the Secretary’s “block schedule of upcoming events,” which includes the
Secretary’s foreign travel. He reviews the Secretary’s agenda, highlights her trips, and
uses the block schedule for determining requirements for protection of the Secretary while
on travel.

Authority to Carry Weapons For Secretarial Foreign Travel

The authority for executive protection personnel to carry weapons and take actions to
protect the Secretary while in a foreign country is granted by the host country. Depending
on the limitations of authority granted by the host country, actions by the executive
protection personnel may subject them to prosecution under host country criminal laws.

The “Executive Protection Procedural Guide” cites two Federal statutes that provide legal
authority for actions by executive protection personnel while protecting the Secretary: Title
18 U.S.C. Section 351, “Congressional, Cabinet, and Supreme Court assassination,
kidnapping, assault; penalties,” and Title 18 U.S.C. Section 3053, “Powers of marshals
and deputies.” Taken together, these statutes provide for executive protection personnel,

                                               75
when deputized as Deputy United States Marshals, to carry weapons in the U.S. while
protecting the Secretary and to make arrests for violations of Federal law.

In a March 17, 1992, memorandum, subject, “Personal Protection of Secretarial Officers,”
to the Director, Office of Safeguards and Security, the Assistant General Counsel for
General Law stated that:

       “U.S. Marshals would be authorized to make arrests without warrant for any
       offense against the United States committed in their presence, or for any
       felony cognizable under the laws of the United States if they have reasonable
       grounds to believe that the person to be arrested has committed or is
       committing such felony. Section 351, Title 18, United States Code, provides
       in pertinent part, that it is a federal crime to kill, kidnap, attempt to kill or
       kidnap, conspire to kill or kidnap, or assault the Secretary (or nominee during
       pendency of the nomination) or Deputy Secretary . . . . It would appear,
       therefore, that a deputized U.S. Marshal could carry firearms and make
       arrests without warrant while protecting the Secretary or Deputy Secretary.”

We also reviewed Title 18 U.S.C. Section 3053, which states that:

       “United States marshals and their deputies may carry firearms and may
       make arrests without warrants for any offense against the United States
       committed in their presence, or for any felony cognizable under the laws of
       the United States if they have reasonable grounds to believe that the person
       to be arrested has committed or is committing such felony.”

These statutes provide authority for executive protection personnel to carry weapons and
enforce Federal laws while protecting the Secretary in the U.S. and while on property within
the jurisdiction of the U.S. However, it appears that the authorities provided by Federal
statute to executive protection personnel while protecting the Secretary overseas are
limited to the authorities, if any, granted by the host country. Some foreign countries
provided permits for executive protection personnel to carry weapons when protecting the
Secretary while in that country. We were not provided a determination that addressed the
legal status of executive protection personnel if they used their weapon or took physical
action against a citizen of that country in the performance of their protection duties.

We were told by an official in the Bureau of Diplomatic Security, Department of State, that
Federal agencies and/or Federal agents have no authority to carry weapons into foreign
countries without that country’s permission. He said that the only authority for U.S.
personnel to carry weapons in a foreign country is granted by that country. He said that
Department of State tries to advise all cabinet level protective details not to carry weapons
overseas because most countries do not like foreign agents carrying weapons. He said,
however, that due to “reciprocity,” most countries will give weapons permits to U.S.
protective details because the U.S. Government will allow their protective details to carry
weapons in the U.S. Normally, the U.S. Embassy’s Regional Security Officer will obtain

                                              76
permits through the host country’s foreign ministry prior to the protective detail arriving in
country. The permit authorizes the protective detail member to carry a weapon while in that
country. We were told that some countries, such as England and Japan, do not allow
weapons in their countries and do not issue permits, while other countries, such as France,
have limitations on weapons allowed in their country.

We were told by an OSA official that the Assistant General Counsel’s March 17, 1992,
memorandum was silent concerning the legal aspects of carrying firearms and/or the legal
ramifications should a member of the executive protection team use their weapon legally or
illegally in a foreign country. This is consistent with our review of the March 17, 1992,
memorandum from the Assistant General Counsel for General Law. According to the OSA
official, the executive protection personnel are volunteers and have no more authority than
other U.S. citizens while traveling overseas conducting executive protection services in a
foreign country.

   RECOMMENDATION 7: We recommend the General Counsel determine the authority
and financial liabilities of the Department and of executive protection personnel when
carrying weapons in a foreign country.

Management Comments. Management commented that we should revise
Recommendation 7 by deleting the words “in a foreign country” from the end of the
recommendation.

Inspector Comments. Our review only addressed executive protection provided to the
Secretary while on foreign travel, therefore, we did not revise our recommendation.

A July 31, 1996, memorandum from the Deputy General Counsel to the Acting Chief
Financial Officer, contained the Office of General Counsel’s conclusions regarding its
review of this matter. In summary, the Office of General Counsel concluded that all but two
of the 16 jurisdictions visited by the Secretary (the United Kingdom and Hong Kong)
authorize personnel assigned to protect Cabinet Secretaries to carry weapons and it is
generally understood that physical force or weapons may be used only in self-defense or in
the defense of the Secretary.

With respect to liability by the Department or the DOE protection personnel in the event that
physical force or weapons are used against a foreign national, the Office of General
Counsel concluded that there probably would not be liability where the host country
consents to the use of firearms by protection personnel and the use of physical force or
weapons is a valid use of self-defense. The Office of General Counsel further concluded
that foreign countries might assert jurisdiction over the United States for alleged torts
resulting from the use of force. Finally, with respect to DOE protection personnel, they
concluded that although these personnel do not enjoy diplomatic immunity, in the event that
there is the use of physical force or weapons, the United States might be able to invoke
sovereign immunity because protection of the Secretary is an official function carried out


                                              77
for a public purpose. It must be shown, however, that the DOE protection personnel were
acting within the scope of their employment.

In view of the Office of General Counsel’s conclusions, it is suggested that DOE consider
including a discussion of executive protection personnel potential liability in the executive
protection training program. We consider management’s actions to be responsive;
therefore, this recommendation may be closed.

C. Trip Costs

   1. Introduction

As part of this review, we sought to identify the total costs associated with each of the
Secretary’s 16 trips. The costs were based on accounting reports provided by the
Department’s Office of Chief Financial Officer, Operations and Field Offices, and
documents provided by contractors who supported the trade mission trips. The total cost
identified for the Secretary’s 16 foreign trips was about $4.58 million, including $3.42
million for the four trade missions. The costs for each of the 16 trips are shown in Table 10.




                                              78
